<html>
<title> - THE DEPARTMENT OF STATE REDESIGN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                    THE DEPARTMENT OF STATE REDESIGN

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2017

                               __________

                           Serial No. 115-74

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-010 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable John J. Sullivan, Deputy Secretary, U.S. Department 
  of State.......................................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John J. Sullivan: Prepared statement...............     7

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71
Written responses from the Honorable John J. Sullivan to 
  questions submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    73
  The Honorable Eliot L. Engel...................................    75
  The Honorable Steve Chabot, a Representative in Congress from 
    the State of Ohio............................................    95
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................    96
  The Honorable Brian K. Fitzpatrick, a Representative in 
    Congress from the Commonwealth of Pennsylvania...............    98
  The Honorable Gregory W. Meeks, a Representative in Congress 
    from the State of New York...................................    99
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   102
  The Honorable Ami Bera, a Representative in Congress from the 
    State of California..........................................   103
  The Honorable Robin L. Kelly, a Representative in Congress from 
    the State of Illinois........................................   106

 
                    THE DEPARTMENT OF STATE REDESIGN

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The hearing will come to order. I will ask 
the members all to take their seats, if you will.
    Today we hear from Deputy Secretary of State John Sullivan 
on the proposed reforms that he and Secretary Tillerson are 
working on for the State Department and for the Agency for 
International Development.
    I don't think there are many that question the need to 
improve the operation of both agencies. A more efficient and 
effective State Department and USAID would better promote our 
national security and our many other interests around the 
world. So I have welcomed the administration's undertaking.
    Secretary of State Rex Tillerson has started a process 
here, as those at State will tell you, where he is focusing on 
listening to the diplomats and listening to the employees, our 
foreign service officers. I think this very commendable. He has 
sought feedback here from the bottom up. Many employees, he 
reports, have asked, and I think this speaks volumes, for more 
responsibility and, in turn, more accountability for their 
performance. They also want better training throughout their 
careers and a modern IT infrastructure. And I think they 
deserve these tools, and we would be all better off if they had 
them.
    So I welcome Secretary Tillerson's efforts to address the 
Department's aging technology infrastructure, and to strengthen 
the diversity of the Department's workforce, including 
increased recruitment.
    He has focused specifically on veterans and minority 
candidates, and this is a goal the committee here has long 
supported. But as a country with global challenges and 
opportunities, I do have continued concerns about whether our 
diplomats and development specialists will have the resources 
they need. Yes, there is room for savings. We need savings. But 
we should not and cannot lose sight of the fact that our 
diplomacy and assistance improves our national security, 
improves our economic well-being for a relatively small amount 
of money.
    Consider this committee's work to sanction rogue regimes 
like Iran over their missile program, or like North Korea. It 
takes skilled, properly resourced diplomacy to build 
international support for sanctions enforcement. And the same 
is true when it comes to convincing nations to turn away cheap 
labor from North Korea, for example. It takes our diplomats 
going out and explaining, when you are doing an arrangement 
where you are not paying those workers from North Korea, you 
are only feeding them, and you are sending the check, the 
foreign currency, to the regime. That money is going into the 
nuclear weapons program and that has to end because of our 
sanctions. That has to be explained by our foreign service 
officers; or working with us to counter Hezbollah; or granting 
our health specialists access to halt an emerging pandemic in 
its tracks, as was done in West Africa with the Ebola virus.
    Robust diplomacy is also needed in conflict zones to defeat 
ISIS and defeat other threats. And that is what we hear from 
our generals who understand the critical need for our country 
to have successful political, and not just military, 
strategies.
    But this leadership requires us being present. And I am 
concerned about reports of closing Embassies and consulates. 
Where we depart, we create a void for unfriendly actors to step 
in and promote interest hostile to our interests. Where there 
is a diplomatic void, we have no eyes, we have no ears, to 
detect the next threat or the next opportunity.
    And so I want to thank the Department. I want to thank the 
Department specifically for starting a dialogue with Congress 
on these reforms, and on its policies, and on its management, 
more broadly. And some of the proposed reforms that we see here 
will require legislation, while others can be undertaken 
administratively. But in both cases, the committee has a 
significant oversight role to play, as we are doing today.
    And after our successful work last Congress to get the 
first State Authorities bill signed into law, in well over a 
decade, the committee continues to have some reform ideas of 
its own, which we look forward to sharing.
    And I will now turn to our ranking member for Mr. Engel's 
opening remarks.
    Mr. Engel. Mr. Chairman, thank you very much for calling 
this hearing, and Mr. Deputy Secretary, welcome to the Foreign 
Affairs Committee. Thank you for your service and for your time 
this morning. I was grateful that you hosted the chairman and 
myself at the State Department yesterday to discuss your 
reorganization effort. I am going to raise some of the concerns 
this morning that I mentioned to you yesterday.
    There is no doubt that the State Department and all our 
Federal agencies should be as effective as possible to address 
the challenges and to seize the opportunities we are facing.
    This committee has taken some steps to modernize our 
foreign affairs agencies, including last year's State 
Department Authorities bill. There are plenty of good ideas 
that could bring the State Department, USAID, and our foreign 
policy into the 21st century. With the Department and Congress 
working in a bipartisan way, I believe we could get there. But 
I was troubled that the apparent first step in a reorganization 
process was the announcement of a 32 percent cut to our 
international affairs budget. I know we discussed it yesterday 
and I will try to ask you to repeat some of the things you 
said.
    In my view, I worry about starting with the budget and then 
finding the reforms is doing things in reverse. To me, it makes 
more sense to lay out a vision for what modernization looks 
like, to set clear priorities, to bring in our diplomats, 
development professionals, and other experts, and then to 
determine the right budget to get the job done. So I hope in 
your testimony, and afterwards, you will mention some of the 
things that you mentioned to us yesterday, you will clarify why 
the decision was made to start with the dollar figure and work 
backwards from there.
    I worry about the reorganization process. I want it to be 
more transparent and collaborative. I don't think that goes 
against anything you told us yesterday. The Department has 
called this an employee-driven process, and I have no doubt 
that the career employees involved in the exercise have totally 
honorable intentions.
    But I understand that those involved are not allowed to 
discuss the plans with their colleagues, and that the private 
sector consultants brought on have kept tight control over 
documents related to the plan. The administration committed to 
this committee that there would be consultation with Congress 
every step of the way, and obviously we still have more 
questions. So I hope we can talk about some of that today.
    And, overall, I must ask, what is the goal of the process? 
What is the administration's vision for American foreign 
policy? For America's role in the world? For how the State 
Department fits into that vision? And for how this process will 
make the State Department more effective?
    The only consistent answer that we have gotten is the 
Department is finding efficiencies; and I worry when the 
administration talks about efficiency that it is just not a 
codeword for budget cuts. Cost savings that undermine 
effectiveness certainly aren't efficient, in the long run they 
make America less safe.
    And as the Department focuses on redesign, I worry the 
critical day-to-day work of diplomacy is suffering. Far to many 
senior positions, and we talked about this again yesterday, 
remain vacant, depriving the Department of leadership. And 
making it harder for allies and adversaries alike to know who 
to call, and who is calling the shots in Washington. So I wish 
you could explain some of that today.
    Overseas, our diplomats' jobs are getting harder because 
they can't know if established American foreign policy will be 
reversed. Morale at the Department continues to suffer, as 
senior career officials flock to the exits. Reports continue to 
surface of an insular group surrounding the Secretary, 
uninterested in the expertise of our most seasoned 
professionals. Taken together, America's credibility around the 
world is wobbling. Our leadership on the global stage seems to 
be waning.
    And, most importantly, without a strong, functional State 
Department with a clear foreign policy vision, our interest, 
values, and security are increasingly at risk. And let me be 
clear, I do support modernizing the State Department. I want to 
see it leading and directing American foreign policy. Civilian 
leadership at the center of national security policy is 
integral to our democracy at home, and to our leadership 
abroad.
    For years, Congress has sat on the sidelines when it comes 
to the State Department, and what do we have to show for it? 
Antiquated IT systems, personnel shortages that make it harder 
to address crises or allow for professional development. 
Traditional responsibilities of the Department moving to other 
agencies, like the Pentagon, distracting from its core 
diplomatic mission. I am glad that the President sees the 
necessity for more funds for DoD, but we don't want it at the 
expense of the State Department, the expense of diplomacy, the 
expense of making sure our Embassies are safe.
    In 2020, the Foreign Service Act will be 40 years old. It 
was written during the Cold War and the world has changed. We 
do need to modernize the Department. That is why I have 
instructed my staff to consult with former diplomats, civil 
servants, and other experts to begin thinking about what State 
should look like for the next 40 years. I would value the input 
of any member of this committee as we move forward. And, again, 
Mr. Deputy Secretary, I look forward to your testimony, and I 
hope you shed some additional light on this process.
    Mr. Chairman, before I yield back, I ask unanimous consent 
to place in the record the following documents dealing with the 
reorganization of the State Department and USAID. The first is 
a report by Modernizing Foreign Assistance and New Foreign Aid 
Architecture Fit for Purpose. Second is a report from the U.S. 
Global Leadership Coalition, entitled Opportunities for 
Reforming and Strengthening Diplomacy and Development. The 
third is a report from The Center for Global Development, A 
Practical Vision for U.S. Development Reform.
    Next is a report from Refugees International called 
Honoring a Distinguished Tradition, Crisis Response in U.S. 
Government Reorganization. And, finally, a submission from 
Amnesty International USA, calling on the State Department to 
preserve the structure, staffing, and resources for the Refugee 
Bureau War Crimes Office and Global Women's Issue Office. So I 
thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Subject to the length limitations in our 
rules, without objection, we will put those reports and include 
them.
    Mr. Engel. Thank you.
    Chairman Royce. Thank you. We now go to our introduction 
here of Deputy Secretary John Sullivan.
    Prior to this position, Mr. Sullivan was a partner at the 
Mayer Brown law firm. He co-chaired its national security 
practice, and previous to that, Mr. Sullivan served in senior 
positions at the Justice Department, then at the Defense 
Department, and the Commerce Department.
    Without objection, the witness's full prepared statements 
will be made part of the record. Members are going to have 5 
calendar days to submit any statements or any questions or any 
other extraneous materials that they want to submit for the 
record here.
    And we would ask, Deputy Secretary Sullivan, if you would 
please summarize your remarks, and then we will go to 
questions. Thank you.

STATEMENT OF THE HONORABLE JOHN J. SULLIVAN, DEPUTY SECRETARY, 
                    U.S. DEPARTMENT OF STATE

    Mr. Sullivan. Thank you, Chairman Royce, Ranking Member 
Engel, members of the committee. Thank you all for inviting me 
here to discuss the----
    Chairman Royce. Secretary Sullivan, let's make sure you 
pushed that and then get it very close. Right there. And 
everyone will be able to hear you. Perfect.
    Mr. Sullivan. Okay. Thank you, Mr. Chairman, Ranking Member 
Engel, members of the committee. I am honored to be here today 
to discuss the redesign of the State Department and USAID.
    We appreciate the interest the committee has shown in the 
Department's efforts to become better equipped and more 
effective in serving the American people. On Secretary 
Tillerson's first day, he promised to deploy the talent and 
resources of the State Department in the most efficient ways 
possible. He also committed to harnessing all the institutional 
knowledge of our workforce to do that. So he went straight to 
those who know best, our State Department and USAID colleagues, 
to determine where reform was most needed. From the very 
beginning, our reform effort has been employee-led.
    We commissioned a listening survey that produced feedback 
for more than 35,000 employees, nearly half of our entire 
global workforce. Hundreds more took part in in-person 
interviews. We also set up State and USAID web portals for 
staff to provide regular input and to continue to guide our 
planning. We have received more than 1,400 submissions to those 
portals.
    After hearing from so many of our own colleagues, we 
convened a cross-section of almost 300 rising leaders and 
seasoned professionals to create a reform plan. I want to 
stress that the employee-led nature of the redesign is not an 
empty slogan. The Secretary wanted employees to drive this 
process from the beginning so that the Department and USAID can 
better serve them, even as they serve our country.
    The Redesign Executive Steering Committee, which I chair, 
is composed of a balance of USAID and State Department leaders. 
Similarly, the five work streams, the groups that drafted the 
proposals that fed into the reform plan, were comprised almost 
entirely of career staff, posted both in the U.S. and abroad. 
Seventy-two percent of work stream members were working-level 
employees, those who deal with the day-to-day business of 
diplomacy and development. Their presence and contributions 
proved to be invaluable.
    The resulting Agency Reform Plan incorporates the 
suggestions and feedback from thousands of our public servants 
serving all over the world. We submitted this plan to OMB 
earlier this month, consistent with the President's Executive 
Order 13781, which calls for improvements in efficiencies, 
effectiveness, and accountability for each Federal agency.
    Let me share with you a few key features of our proposed 
plan. First, we need to streamline the policy creation process 
and optimize and realign our global footprint. The world is 
changing quickly and State and USAID need to be nimble, that 
means taking inputs from the field, turning them into evidence-
based recommendations, and executing them as quickly as 
possible. We will use the same approach to assess our physical 
footprint around the world to ensure that our missions abroad 
align with our foreign policy priorities.
    Second, we must maximize the impact and accountability of 
U.S. foreign assistance. We need to strengthen planning among 
the 20-plus agencies that provide some type of foreign 
assistance, to make sure our foreign policy goals are focused, 
integrated, and supported.
    Third, we need to implement a more effective global service 
delivery framework to reduce operational costs and 
redundancies, increase efficiency, and improve service quality 
for our personnel around the globe. We want to reduce red tape 
and bureaucratic hurdles by making management and 
administrative functions do what they were intended to do, 
support our professionals as they change posts, develop their 
skills, and serve our country all over the world.
    Fourth, we need to empower and retain a 21st century 
workforce by optimizing our HR support. Too often employees are 
bogged down trying to navigate broken processes or redundant 
systems. We envision HR shifting to a more strategic role to 
help State and USAID attract a more diverse workforce and to 
invest more in our most valuable assets, our people.
    Finally, we need to improve our IT platforms, modernize 
legacy systems, and upgrade our technology infrastructure so 
that our employees can work anywhere, anytime, and as 
effectively as possible. We urgently need to integrate our IT 
systems and cybersecurity platforms. By upgrading our systems 
and modernizing our technology, we can save money in the long-
run, reduce overall risks, and facilitate better decisionmaking 
in the future.
    The redesign provides a new foundation for our diplomacy 
and development professionals. It will also generate 
significant savings as we streamline processes and increase 
efficiencies across the Department. The proposals we are 
pursuing will save the American taxpayer a minimum of $5 
billion over the next 5 years, with an aspirational whole of 
government target of up to $10 billion.
    Some of these changes will require further guidance and 
approval from OMB, others will require close coordination with 
other agencies. Still, others will require a change in law by 
Congress. And, be assured, that for all aspects of the 
redesign, whether or not a change in law is required, we will 
consult with this committee and Congress before any actions are 
taken.
    We are working to move quickly on the redesign. The reforms 
that the Department can implement internally will be rolled out 
as soon as possible, after consultation with Congress. For 
example, in the coming months, we hope to move the State 
Department toward a cloud computing platform, and increase the 
number of foreign service family members we employ abroad.
    Let me emphasize that, throughout this process, I commit to 
consulting closely with this committee. Your input, as always, 
is most important as we move forward. Therefore, I am grateful 
for the opportunity to speak to you this morning about our 
reform plan and hear your feedback. And I would be happy to 
take your questions. Thank you.
    [The prepared statement of Mr. Sullivan follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
                              ----------                              

    Chairman Royce. Well, thank you very much, Mr. Sullivan. 
Let me start, as you know, the State Department Authorities Act 
requires the Department to notify this committee no less than 
45 days before closing a diplomatic post. Will the Department 
commit to a robust engagement with the committee before you 
seek to close a diplomatic post, because our members have 
decades of experience and strong views on this?
    Mr. Sullivan. Absolutely, Mr. Chairman.
    Chairman Royce. I appreciate that. And let me emphasize 
here why I think this is key. Just to follow through on the 
legislation that we pass in this committee, for example, the 
legislation we passed on sanctions on North Korea, I explained 
a little bit of this, but our response to that threat is to 
have our diplomats make it clear to every country on Earth that 
they have got to cut ties with that rogue regime or suffer the 
consequences of it.
    It is our diplomats who have the relationships in these 
countries throughout the world, who follow up and explain 
directly how seriously the United States takes this. And, as I 
mentioned also in my opening remarks, they are our eyes and 
ears. In northern Nigeria, for example, Boko Haram emerged 
seemingly out of nowhere. We have no diplomatic presence in all 
of northern Nigeria. The Muslim population in Africa is the 
most populated country, over 140 million people. And because we 
closed our consulate in Kaduna in the 1990s, the previous 
administration looked at reopening a consulate in the region, 
but once closed, posts are very difficult, very expensive to 
reopen.
    China certainly isn't trimming back its diplomatic presence 
there, as you know. Nor, in the case of the conversations I had 
with the governor of that state, where now Boko Haram holds 
sway, told me, money was flooding into the area from the Gulf 
states, setting up at that time madrasas to recruit. He told me 
about one across the street from the madrasa where he got his 
education. But the new one, young boys were wearing Bin Laden 
tee shirts. And he explained what the consequences were going 
to be, and he was right. But we have to have that presence on 
the ground to see these kinds of things coming, and it has to 
be our foreign service that is engaged there.
    Let me ask you another question, and this goes to this 
issue of hiring veterans and increasing diversity. The foreign 
service will be the most effective that it can be when it draws 
on the strengths of the American people. However, it is my 
understanding that the interview is only offered in Washington, 
DC, and in San Francisco. Will the Department consider offering 
the interviews in more places such as on military bases? If I 
could ask you that question.
    Mr. Sullivan. Yes. Mr. Chairman, I met, in fact, last week 
with all of our employee affinity groups, including our 
veterans group at the State Department, to discuss better ways 
to recruit for the Department to increase our diversity, which 
is a key goal of the Secretary, as you know.
    Chairman Royce. Yes. And I just, in my opinion, think, that 
if you were to deploy a strategy, and if it was well understood 
that we were going to do this at military bases, and that those 
interested in serving the foreign service would have that 
option, I think in terms of the Secretary's commitment to 
increase efforts to hire veterans, and this focus on diversity, 
this would be a very helpful way to make that happen. And I 
appreciate your willingness.
    With that said, let me go to Mr. Engel for his questions.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Mr. Secretary, I wanted to, again, thank you for taking the 
time to meet the chairman and myself for lunch yesterday. It is 
very important for this committee and the State Department to 
have a good working relationship. And I believe the commitments 
you made yesterday go a long way in advancing a constructive 
working relationship. We won't always agree, but I think the 
constructive working relationship is very important.
    So one thing we discussed, and I would be grateful if you 
would reaffirm it here today, is your commitment that the State 
Department will respond in a timely fashion to the requests for 
documents and information that come from myself or the chairman 
or our staff?
    Mr. Sullivan. Absolutely, Congressman Engel.
    Mr. Engel. Thank you. I wonder if you would also clarify, 
as you did yesterday, the Department's policy regarding the 
necessity of a chairman's letter for certain types of 
information, so we are clear about that?
    Mr. Sullivan. Certainly. Subject to legal restrictions 
imposed because of executive privilege, my policy and the 
Department's policy will be to be as responsive as we can be, 
both in responding to phone calls, to request for documents, 
and a call from any member of this committee, or a request from 
any member of this committee is a high priority for the State 
Department. You have my commitment on that. And if we fall down 
on the job, please let me know and I will remedy that 
situation.
    Mr. Engel. Thank you. I appreciate that. And Secretary 
Tillerson made the same commitment, and when it wasn't being 
fulfilled, I went to him again and he reaffirmed the 
commitment. So I am pleased that you are reaffirming that as 
well.
    I would like to read something to you: ``We will eliminate 
overlap, set priorities, and fund only the work that supports 
those priorities. We will empower our people to make decisions, 
and hold them accountable for the results. This begins with the 
Chiefs of Mission in our Embassies around the world. We will 
give our Chiefs of Mission the tools they need to oversee the 
work of all U.S. Government agencies, empower them, and engage 
them more fully in policy-making in Washington. It sounds 
basic, but it is the kind of change that will help us tap the 
full potential of our civilian power.'' That is the end of the 
quote.
    Does this sound like it aligns with Secretary Tillerson's 
vision for improving the Department? There is a 2010 QDDR 
report, and I am quoting from the 2010 QDDR: ``Secretary 
Tillerson recognizes the need for modernization of the State 
Department, and both of his immediate predecessors saw it as 
well. But one of the criticisms the QDDR report, including from 
our committee, is that it failed to realize many of its 
goals.''
    So, in my opinion, I would like to hear your opinion, one 
of the reasons we failed was the lack of funding. This document 
is full of important and insightful ideas, but because these 
ideas were not linked with resources, they didn't lead to the 
transformation of the Department in the ways we had hoped they 
would.
    Would the Secretary's reorganization make the State 
Department more effective? You will find enthusiastic support 
from this committee on both sides of the aisle. But how can the 
administration carry out real or lasting reforms, including an 
IT modernization, that is currently dramatically underresourced 
when you have tied your hands with respect to the budget?
    Mr. Sullivan. Well, as we discussed yesterday, Congressman 
Engel, one of the key goals of the redesign is to empower our 
men and women, our Ambassadors, in particular, the Chiefs of 
Mission, who are in the field implementing U.S. foreign 
policies. That is one of our overriding goals that has been 
clear from the Secretary's first day on the job.
    As we also discussed yesterday, the budget process to which 
you refer started before Secretary Tillerson was confirmed and 
took office. So he came onboard, I followed several months 
later. We had a budget process that was already underway. The 
redesign effort, as I have said in other context, the Secretary 
would have been taking this redesign effort even if we had had 
a budget increase.
    It is important for us to find efficiencies in the 
Department, to be good stewards of the taxpayer money. But 
there will also be areas, as you have noted, where as we go 
forward, particularly with respect to IT infrastructure, where 
we will in the future need investments. And the Secretary has 
made a commitment to the Department, and I will repeat it here 
to this committee, where we need more resources to do our jobs 
more effectively, we will seek them. IT is one area where I 
predict we will need assistance in the future in reforming our 
IT infrastructure.
    Mr. Engel. All right. Well, thank you. Thank you, Mr. 
Chairman.
    Chairman Royce. Thank you. We go to Mr. Dana Rohrabacher of 
California, chairman of the Subcommittee on Europe and Eurasia.
    Mr. Rohrabacher. Well thank you very much, Mr. Chairman. 
How many people do you have working at the State Department? 
What is your payroll like?
    Mr. Sullivan. At the State Department, Congressman 
Rohrabacher, we have approximately 75,000 employees worldwide.
    Mr. Rohrabacher. How many again?
    Mr. Sullivan. 75,000.
    Mr. Rohrabacher. 75,000?
    Mr. Sullivan. Yes. Worldwide.
    Mr. Rohrabacher. Worldwide. What is the number of people 
that a new President, political appointees, but brought in by 
the new President, how many spaces are there for those? There 
are 75,000 regular employees, how many political appointees are 
there?
    Mr. Sullivan. Well, there are a couple of different 
categories. There are all the Ambassadors, so there are 
approximately 190. Of those, roughly 30 percent are political 
appointees, in other words, they are not career foreign service 
officers.
    Mr. Rohrabacher. Right.
    Mr. Sullivan. So that is one category. Then there are 
positions at the State Department itself, Under Secretaries, 
myself, Deputy Secretary, Assistant Secretaries.
    Mr. Rohrabacher. Right.
    Mr. Sullivan. There would be fewer than 100 of those.
    Mr. Rohrabacher. There is only 100?
    Mr. Sullivan. Approximately.
    Mr. Rohrabacher. Okay. And of those 100, how many of those 
are now filled? How many of those political appointees are 
sitting now and have their authority?
    Mr. Sullivan. Those who are now in office, actually at the 
State Department or in their ambassadorial post, it would be 
fewer than 20. That is a rough guess on my part. We have 30 
nominees that are pending before the Senate Foreign Relations 
Committee.
    Mr. Rohrabacher. Thirty nominees?
    Mr. Sullivan. Thirty nominees pending.
    Mr. Rohrabacher. And that is for----
    Mr. Sullivan. For both appointments at the State 
Department, for example, Under Secretary for Management.
    Mr. Rohrabacher. Right.
    Mr. Sullivan. Legal adviser.
    Mr. Rohrabacher. Right.
    Mr. Sullivan. Assistant Secretary for European Affairs. And 
then we have another category of individuals who have been 
selected by the administration, but who are undergoing their 
background investigation and filling out their financial 
disclosure forms and being reviewed by the Foreign Relations 
Committee. That would probably be another 20 or 30, I would 
say, of those.
    Mr. Rohrabacher. Okay. So you are saying that about 50 
people that could have been appointed by the President are not 
now----
    Mr. Sullivan. Correct.
    Mr. Rohrabacher [continuing]. In their positions. So when 
we say that elections count in this democracy, that we have 50 
people now whose slots are either being taken by career people 
until they get there, or actually--are there any appointees 
from the last administration still in those positions?
    Mr. Sullivan. To my knowledge there are no political 
appointees who are filling those positions. There are, however, 
career foreign service officers who are filling those 
positions.
    Mr. Rohrabacher. All right. And, Mr. Chairman, I think that 
across the board we have seen--we are already into October, you 
know, and the President of the United States, if our elections, 
the democratic process means anything, the President has to 
have his people in there to help direct policy because that is 
who the people voted for. And I think that we are seeing 
something that I haven't seen for a long time, I have never 
seen, is that throughout our Government, not just State 
Department but elsewhere, we have these seats that are vacant 
that should be Presidential appointees.
    Let me ask you about NGOs and their relationship to the 
State Department. Do we actually provide services for 
nongovernmental organizations that are active in different 
countries?
    Mr. Sullivan. I believe, among other things, we provide 
financial assistance to NGOs that, in turn, provide assistance, 
whether it be life-sustaining food, water, medical assistance. 
So we will contract with, among others, NGOs for those types of 
services.
    Mr. Rohrabacher. Okay. And are NGOs--obviously we have our 
beliefs and we want--we have certain standards, but when NGOs 
go into another country, are they required to respect the 
culture of that country?
    Mr. Sullivan. That would certainly be expected Congressman, 
yes.
    Mr. Rohrabacher. Okay. So NGOs--we get complaints--I have 
gotten complaints, as I have traveled around, from people that 
the NGOs are actually out trying to change the country. And, of 
course, we want a certain amount of change, but at some point 
it becomes a disrespect for the culture of those countries. 
Good luck in trying to find that line. And good luck in your 
new position. Thank you very much.
    Mr. Sullivan. Thank you, sir.
    Chairman Royce. We go now to Brad Sherman, ranking member 
of the Subcommittee on Asia and the Pacific.
    Mr. Sherman. Mr. Deputy Secretary, I want to thank you for 
your comments about wanting to get information to Congress and 
answer our questions. Rex Tillerson, the Secretary, was here on 
June 14--and, of course, we only get 5 minutes, and a lot of us 
have a lot more questions, and that is why we have questions 
for the record. But the questions for the record for the June 
14 hearing haven't been answered yet. I wonder if you could 
commit to having the June 14 questions answered--the vast 
majority of them by October 15 and all of them by October 31?
    Mr. Sullivan. Well, I think I can do better than that, 
Congressman Sherman. I believe I heard this morning on my way 
up, and it is strictly a coincidence, I assure you, that those 
questions--those responses were provided this morning. So if 
there are any that are outstanding, I will make sure that they 
are----
    Mr. Sherman. I am eagerly awaiting one of those, and that 
is, I asked--you are submitting a budget that involves drastic 
cuts. And the Secretary agreed to say how he would propose 
spending 10 or 20 or 30 percent more money than the 
administration was asking for. Because that would give Congress 
the expert view or the, at least, executive branch view of not 
only how to spend the amount of money you are talking about, 
but if we decide--how we would allocate more. And I hope that 
you can commit to answering the QFRs for this hearing within 30 
days. Can you do that?
    Mr. Sullivan. Absolutely.
    Mr. Sherman. This reorganization plan, I hope, is not a 
cover for cuts or a reason to delay filling posts. Others have 
asked you about that delay. The administration has a muscular 
tone in its foreign policy. Sanctions are an important part of 
that, sanctions are very labor intensive. It is not a matter of 
just giving a speech at a rally. It is a matter of convincing a 
Danish or a Dutch bank or government on this deal or that deal. 
And I would hope that you and the Secretary would convince the 
President that a muscular foreign policy requires a fully 
staffed State Department.
    Tom Lantos was our chairman here. He pushed forward 
legislation that created the special envoy on Global Anti-
Semitism. I know your department has committed to filling that 
post. Can we count on that being filled fairly soon?
    Mr. Sullivan. You have my word on that, Congressman. If I 
don't, it is my fault, and I assure you it will be filled 
promptly.
    Mr. Sherman. Okay. Now, there has been a report of a plan 
to transfer the Bureau of Population, Refugees, and Migrations 
and Consular Affairs to the Department of Homeland Security. 
Can you put those rumors to rest?
    Mr. Sullivan. I can.
    Mr. Sherman. That is not under consideration?
    Mr. Sullivan. That is not under consideration.
    Mr. Sherman. That is a great answer. We have, all around 
the world, consulates. The consulates report to the Embassy, 
and the Embassy reports to Washington. The one exception to 
that is our consulate in East Jerusalem. And I wonder whether 
part of your reorganization could be to have the same policy 
there as everywhere else, and have the consulate in East 
Jerusalem report to the Embassy?
    Mr. Sullivan. Well, the issue of our Embassy in Israel, as 
you know, is----
    Mr. Sherman. I am not asking the bigger question about 
moving to Embassy to Jerusalem. Assuming we keep the facilities 
that we have now, would the consulate in East Jerusalem report 
to the Embassy, which is currently located the Tel Aviv?
    Mr. Sullivan. I would certainly take that under advisement, 
Congressman.
    Mr. Sherman. Not everything that relates to foreign policy 
can be in the State Department. I would hope that you would 
provide guidance, as you have a process of doing, to the BBG, 
the Broadcasting Board of Governors, about the importance of 
broadcasting in the regional language of Pakistan. I don't have 
to tell you that this is one of--while North Korea has one 
language, Pakistan has several. And if you are trying to reach 
the population of this important country with over 100 nuclear 
weapons, you can't just broadcast in Urdu and Pashto.
    And, finally, I am going to ask you to convey to the 
Secretary of the Treasury, or the Assistant Secretary for Tax 
Policy, the importance in--they have to allocate their time and 
where to negotiate a tax treaty, and they have been doing it on 
kind of a paint-by-numbers basis. How big is the GDP of this 
country, or whatever, ignoring the geopolitics. And there are 
places in the world where having a tax treaty furthers the 
objectives of the State Department, and your Assistant 
Secretary of Europe testified in a smaller hearing that having 
a tax treaty with Armenia is important geopolitically. And I 
hope we can get that influence over to the Treasury Department.
    Mr. Sullivan. I will do so.
    Chairman Royce. Okay. We will go to Joe Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you Mr. 
Secretary, for being here today. I was very fortunate in 
August, I was with Congressman Paul Cook on a delegation. We 
visited Romania, Bulgaria, Latvia, Lithuania, Republic of 
Georgia, and Poland. And I can report firsthand that all of the 
State Department personnel who were with us were first class. 
They were very competent, capable. They connected with the very 
important new allies of the United States. And so it was just a 
very uplifting experience in each of those countries. And I was 
so proud of the dedication of your personnel on behalf of the 
American people.
    But I do know that the Foreign Service attracts thousands 
of applicants each year, however the Department struggles to 
effectively recruit Foreign Service Officers with a greater 
diversity of experience, including veterans, and those from 
under-represented portions of the country. Successive 
administrations have pledged to increase veteran recruitment 
with limited success.
    Does the Department intend to target veterans for 
recruitment? If so, what reforms to the recruitment process are 
being considered to reach this goal?
    Mr. Sullivan. Well, thank you, Congresswoman Wilson. Yes, 
recruitment of veterans is a priority for the Department. As I 
discussed earlier with the chairman, one issue that we have 
discussed is recruitment at military posts. I have met with 
Retired General David Petraeus who came to speak to our 
veterans affinity group about this issue. And I have met with 
our group leader as well.
    Mr. Wilson. And many veterans have language skills that 
could be so helpful, too. Currently, the Department only 
interviews candidates for the Foreign Service in Washington and 
San Francisco, not exactly the most representative of U.S. 
cities. Is the Department considering conducting the oral 
assessment exam at military bases across the county to 
encourage veteran hiring?
    Mr. Sullivan. Yes, we are.
    Mr. Wilson. Super. Please. That is good. And what other 
reforms is the Department considering to recruit Foreign 
Service Officers with more diverse backgrounds and skill-sets 
like veterans?
    Mr. Sullivan. Well, a commitment to diversity is a priority 
for Secretary Tillerson, and not just with respect to veterans, 
but with respect to all aspects of American society. The State 
Department should reflect America, and we are committed to 
that. Veteran hiring is a priority for us, as I have said, and 
I have discussed this with Chairman Royce. And we are doing all 
we can for outreach to veterans, but also to other groups as 
well who are under-represented in the State Department.
    Mr. Wilson. Well, thank you very much. And I look forward 
to working with you on that, too. Given the prominent role 
assigned to the Department by the President's executive order 
on cybersecurity, I am concerned about plans to downgrade the 
Office of the Coordinator for Cyber Issues and merge it with an 
existing office within the Bureau of Economic and Business 
Affairs. At a time when the U.S. is increasingly under attack 
online, shouldn't the State Department continue to have high 
level leadership focused on the whole range of cyber issues not 
relegated to economics?
    Mr. Sullivan. Yes, Congressman Wilson, it is a priority for 
the Secretary. The move that you discussed for that special 
envoy is only the first step in our approach to cybersecurity. 
I have discussed this with the Secretary. We are committed to 
raising this to a high level within the Department, and working 
with the White House on that issue.
    Mr. Wilson. And in fact, the House passed legislation, H.R. 
600, the Digital Gap Act, expressing the sense to Congress that 
there should be an Assistant Secretary for Cyberspace to lead 
the Department's Diplomatic Cyberspace Policy, the Department 
take into consideration that provision, which effectively calls 
on the Secretary to elevate the rule of cyber diplomacy before 
there was the provision of downgrading?
    Mr. Sullivan. Yes, I can commit to you that cybersecurity, 
our whole cyber effort, will be elevated at the Department 
beyond the level it is now.
    Mr. Wilson. And with that understanding--and we are pleased 
to learn that the Department cyberspace functions will continue 
to focus on a full range of activities beyond just economic 
issues, doesn't that call into question your plans to house the 
office within the Economic and Business Affairs Bureau?
    Mr. Sullivan. The final decision about where and at what 
level we will place the cybersecurity responsibility hasn't 
been decided. The initial decision that was made was that for 
this special envoy office, which exists, we have moved that 
into that bureau, but that is only the first step in addressing 
the larger cyber issue that the Department needs to--and we 
will consult with this committee on where the appropriate level 
is and what bureau it is in before that decision is----
    Mr. Wilson. Thank you. And I hope you all will be pushing 
hard on the 30 pending ambassadorships, that they be secured as 
soon as possible. Thank you.
    Mr. Sullivan. Yes.
    Chairman Royce. And we go now to Greg Meeks, ranking member 
of the Subcommittee on Europe.
    Mr. Meeks. Thank you, Mr. Chairman. Mr. Secretary, first 
let me just congratulate and thank you. It seems as though any 
time that you have been called to come and serve our great 
country in various administrations, you have done that, and I 
think that is something to be thankful for.
    Mr. Sullivan. Thank you.
    Mr. Meeks. And, likewise, when I look at our individuals in 
the State Department, and I think that we have said it just 
about unanimously, that no matter where we travel, when we look 
at the men and women that are in our State Department and how 
they serve our country, it is just miraculous. And so, you 
know, a number of us are very concerned when we hear the 
drastic cuts--and I don't know, sometimes I get nervous when I 
hear the word modernization because I don't know what that 
means. Does that mean that we are going to get the equipment 
and make sure we have the new technology that is necessary so 
that our State Department has all of the tools that it needs to 
continue to do the great job--the job that it often does with 
its hands tied. Or does it mean that we are going to have to 
cut personnel and make their jobs even more difficult than it 
already is, because they have tough jobs.
    And I think as General Mattis has said, the more that we 
take away from the State Department, the more we have to put 
into DoD. So we are nervous. And as I travel, I think that a 
number of the employees in the State Department are nervous. I 
listened to your opening statement where you said that--and I 
see that 66 percent of the individuals responded, but they 
still don't know what the final plan is, and the information 
flow has not gotten down.
    So there seems to be a lot of morale problems now because 
they don't know the uncertainty of whether or not what they 
have recommended would be heard. And then when we have what 
took place, for example, what concerned me at the U.N., this 
past week in New York, where I believe there was some 140 
officials that were there, and it was down from twice that 
number the year prior. And what I looked at before was 
consistent because here was an opportunity to have our 
diplomats in the State Department working with all of these 
heads of State at various levels. That is how this works. So 
when I see that kind of reduction, that to me means that there 
is difficulty in getting our diplomacy out and talking and 
working with these other governments.
    So can you tell me, is that going to be the trend? Are we 
going to see less numbers of diplomats and people from the 
State Department that are going out to promote our diplomacy, 
as we just saw exhibited at the U.N. last week?
    Mr. Sullivan. Absolutely not, Congressman. I approached 
this job--when I interviewed with Secretary Tillerson, I spoke 
to him of my enormous respect and regard for the Foreign 
Service, and it comes from my family. My family--my uncle 
served in the Foreign Service, my father's brother, 32 years in 
the Foreign Service. He was actually our last U.S. Ambassador 
to Iran. It was his staff that was taken hostage on November 4.
    So I understand the burdens that Foreign Service and our 
Civil Service face when they are posted abroad. I committed to 
Secretary Tillerson, Secretary Tillerson is committed to the 
Department, that our goal is to empower those women and men in 
the Foreign Service and the Civil Service who serve the United 
States abroad in dangerous places on our behalf with little 
thanks. And our men and women in uniform are absolutely 
deserving of our respect and admiration, and thanked for their 
service. But our Foreign Service and Civil Service offices are 
equally deserving of that respect and thanks because they 
serve, just as our military does, in dangerous places.
    Mr. Meeks. Absolutely. And, again, thank you. Then the 
other decision that kind of puzzled me a little bit, that it 
has been reported that after initially turning down funding for 
the Global Engagement Center that focuses on anti-propaganda 
efforts, Secretary Tillerson approved the request for the 
transfer of $40 million from DoD. The State Department deserves 
to have its own funding. Can you tell me why the State 
Department is relying on DoD funding for its own civilian 
efforts to combat terrorism and propaganda from our Government?
    Mr. Sullivan. Certainly, Congressman Meeks. Let me clarify 
that. There is an appropriation for our Global Engagement 
Center that is State Department money, and we are spending that 
money. A separate statute authorized the Department to seek 
from the Department of Defense an additional amount of money, 
which Defense could transfer to us. That is the $40 million 
that we sought. So we have our own money, we sought an 
additional $40 million from the Defense Department, and that is 
because the way Congress wrote the law, we had to ask the 
Defense Department for the money, we did, and it has been 
transferred to us.
    Mr. Meeks. Thank you for your service.
    Mr. Sullivan. Thank you.
    Chairman Royce. We go now to Mr. Mark Meadows of North 
Carolina--I don't think he is with us at the moment. Adam 
Kinzinger from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you, sir, 
for being here. Thank you for your service to your country, and 
it is very much appreciated. I think State and USAID are 
sometimes the unsung heroes of conflict mitigation, and in many 
ways we never see some of the success they provide because it 
is in a lack of a war, for instance, you know, which is hard to 
quantify.
    My colleague mentioned the Global Engagement Center. I just 
want to drill a little deeper on that, if you don't mind, sir. 
You mentioned the $40 million coming from DoD. So I just want 
to clarify. You are accepting the $80 million then that was 
written in the statue now, and so that would be a total of $120 
million in essence, is that what you are saying?
    Mr. Sullivan. We have requested and received from the 
Defense Department $40 million. We have our own appropriated 
funds, which we are also applying to the Global Engagement 
Center's mission.
    Mr. Kinzinger. Okay. So that is happening then?
    Mr. Sullivan. Right.
    Mr. Kinzinger. So if you look at kind of your overall idea 
of redesign or fixing the State Department, how does the Global 
Engagement Center figure into your redesign plans? Where do you 
guys see this going? What are some of the benefits you see in 
terms of pushing back against the propaganda from our eastern 
friends, I guess, or nonfriends, competitors?
    Mr. Sullivan. The Global Engagement Center figures 
prominently in our public diplomacy in countering the malign 
activities of terrorist organizations, whether it is ISIS, al-
Qaeda or their affiliates. That has been the mission 
traditionally of the Global Engagement Center since it was 
created by Congress.
    The new aspect of our mission and the $40 million which we 
have gotten from the Defense Department is to counter State 
efforts at propaganda, so Russia, China, Iran, North Korea, 
which is a different form of mission, the GEC was initially 
focused on terrorist organizations, it is now also focused on 
State efforts at propaganda. Both are important, both are being 
funded properly, and both will figure prominently in our public 
diplomacy going forward.
    Mr. Kinzinger. Good. And maybe you can respond to this or 
maybe I will just state it for the record. I think the 
intention of Congress and the $80 million was to really focus 
on the counter-propaganda efforts of Russia, because as we have 
seen and our various friends in Eastern Europe, they are the 
victims of a lot of this, and we have seen the victim of that, 
in fact, here on our own shores. So I think that is essential.
    And I also firmly believe that the State Department, as I 
mentioned, and USAID, are unsung heroes in conflict mitigation. 
And I think rather than hindering our diplomats and USAID 
professionals, we need to provide them with greater flexibility 
and capacity to operate in conflict zones so we can work to 
provide hope and opportunity to the 7- and 8-year-olds that we 
see right now in refugee camps, which I would call it the next 
generational war on terror. And it could either lead to guns 
and bombs or it can lead to, frankly, a generation that rises 
up to reject terror within their own communities.
    And I think that's frankly how you are going to actually 
win this. I think bombs and guns are important in the current 
fight, but I think we have to look at that next generation, 
because this could be a war that we are engaged in for the rest 
of my life, and something I think that is essential.
    So how does the redesign in your mind offer solutions for 
increasing State and USAID's flexibility and capacity to 
operate in conflict zones like Syria or elsewhere?
    Mr. Sullivan. Well, I think you are absolutely right, 
Congressman, about the challenge we face with refugees, whether 
it is refugee camps in Jordan, from the conflict in Syria, the 
refugee crisis we see now on the border of Burma and 
Bangladesh. Those enormous refugee populations are a global 
problem and will continue to be unless it is properly 
addressed. We have at the State Department modest means, not 
the complete means, to address them. It is a global problem. 
So, for example, in Burma, we have spent $32 million now to 
start to address the refugee crisis there. Our Ambassador in 
Burma is looking to go up to the Iraqi state to get to the 
border within the next 2 days. We are doing all we can to 
address that problem there.
    We have spent large sums of money to address the refugee 
crisis that has been generated by the rise of ISIS in Iraq and 
Syria, and with partners and allies, with the help of the 
Jordanian Government, which has done a heroic amount of work. 
We are trying to do all we can to address that problem, 
because, as you know, this is a generational problem, and this 
is going to be a problem that will face us for years to come.
    Mr. Kinzinger. Thank you. And since my time is running out, 
I won't ask the question, but I will make this statement. As 
you guys are looking at diplomatic outposts maybe to 
consolidate or shut down, I think it is important to remember, 
we didn't have a diplomatic post in Afghanistan pre-9/11. And 
so a lot of the areas, when we look at around the world where 
to do this, we need to be thinking--and I know you are thinking 
of this, Mr. Secretary, not in terms of the conflict today but 
what could potentially be a conflict tomorrow, and the benefit 
of having a presence there, again, for conflict mitigation, 
which we can't quantify how many conflicts we have stopped with 
State or USAID.
    But, again, I want to thank you and the people that work 
for you for your hard work to the American people. And, Mr. 
Chairman, I yield back.
    Chairman Royce. Albio Sires of New Jersey is the ranking 
member on the Western Hemisphere.
    Mr. Sires. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    And thank you for being here and the work that you do to 
serve this country and all the people that work for you. I get 
a chance to travel quite a bit, and they are professional, they 
are working hard every day. And, quite frankly, some of them 
are in real dangerous situations, and I am concerned. And I 
also want to thank you for the coincidence of answering our 
questions that happened this morning. We submitted about 3 
months ago the questions. And I get concerned--go ahead, sir.
    Mr. Sullivan. There is nothing like a congressional hearing 
to focus the concentration.
    Mr. Sires. What a coincidence, right?
    Mr. Sullivan. That is just an observation.
    Mr. Sires. I get concerned when we throw out numbers like 
30 percent, that we are going to have this kind of cut in the 
State Department. You can imagine what it does to the people 
that work for you, and you can imagine what it does for the 
countries that we deal with.
    And one of the things that really concerns me is this 
hiring freeze and how it impacts the family members that work 
for these people. Some of these people are not going to be able 
to work. And it is hard enough already for some of the 
employees, you know, with the salary that they get, to make 
ends meet in some of these places, but now you have a situation 
where even the family members cannot be employed if we 
implement this 30 percent. So can you talk a little bit about 
that? Even schooling of the children.
    Mr. Sullivan. Sure.
    Mr. Sires. I mean, that is all part of it.
    Mr. Sullivan. Absolutely. The employment of family members 
at U.S. Embassies abroad is vitally important, not just for the 
support, the monetary support, it provides for those families, 
but for the services that those family members provide to our 
Embassy.
    So we have had a hiring freeze in place. There was an 
administration-wide hiring freeze. The Department has continued 
that hiring freeze until we get a better handle on our 
redesign. There are a lot of exceptions, though, to that hiring 
freeze. Among them has been an exception for the employment of 
family members. I believe the numbers are we have employed--
since the hiring freeze went into effect, we have brought on 
somewhere between 800 and 900 authorized family members to work 
at our Embassies.
    It is a consistent concern. I hear from our Ambassadors 
when they come back from post to Washington and I meet with 
them. Employment of family members at Embassies is always a 
topic they raise.
    Mr. Sires. And schooling too.
    Mr. Sullivan. Schooling as well.
    Mr. Sires. You know, that is what we hear also when we 
travel.
    Mr. Sullivan. Right.
    Mr. Sires. Okay. I hate to bring this into this Cuban 
foreign affairs situation, but I know that Tillerson is meeting 
with some of the Cuban diplomats in Havana? Is that correct? 
When is that happening?
    Mr. Sullivan. We have had regular contact with the 
Government of Cuba. If you are referring to the acoustic 
incidents----
    Mr. Sires. Yes.
    Mr. Sullivan [continuing]. That have been happening----
    Mr. Sires. I was coming to that.
    Mr. Sullivan [continuing]. In Havana, we have had regular 
contact to register our deep concern with what has happened in 
Havana and to remind the Cuban Government of its obligation 
under the Geneva Convention to protect our Embassy employees 
and their families down there.
    Mr. Sires. Yeah. We have been trying to get a briefing 
schedule, and we can't seem to get it, on where we are with 
this acoustic situation from the State Department.
    Mr. Sullivan. If you need a briefing, Congressman, I will 
guarantee you, this committee, whoever wants a briefing will 
get one. And our staff can perhaps speak with the chairman 
after this hearing, and we will arrange to get the information 
you need to understand what is happening in Havana at our 
Embassy.
    Mr. Sires. I am also concerned about the crisis in 
Venezuela and our role with the OAS. How involved are we with 
the OAS?
    Mr. Sullivan. I actually had the honor to represent the 
United States at the OAS General Assembly in Cancun in late 
June. There was a diplomatic accomplishment by the United 
States and our allies at that meeting, where we got over 20 
countries in the region to back a resolution on Venezuela. 
Unfortunately, we didn't reach the two-thirds threshold to get 
that resolution passed----
    Mr. Sires. Sorry. My time is running out. I am just 
wondering if some of these cuts are going to impact our ability 
to do something like this in the future.
    Mr. Sullivan. Absolutely not. We will not----
    Mr. Sires. Because this country is all--I don't want to 
interrupt. I mean, they are all frightened that all these cuts 
are going to take place and we are not going to be as active as 
we have been in the Western Hemisphere, which I work with.
    Mr. Sullivan. Yes. No, Venezuela, in particular, is a 
priority for this administration, and we will continue to work 
hard on that topic and bring pressure to bear on the Maduro 
government, which, as you know as well as anyone, has really 
driven the Venezuelan country, its economy into dire straits.
    Mr. Sires. Thank you.
    Chairman Royce. Will the gentleman yield?
    Might I suggest--you are the ranking member on Western 
Hem--that we formalize the request right now to the State 
Department concerning a private briefing for the members here 
with respect to the concerns our Foreign Service Officers have 
who were stationed in Havana with respect to some of the health 
issues that they have raised so that we can learn about the 
ongoing discussions here.
    Mr. Sullivan. We will undertake to have that briefing for 
you.
    Chairman Royce. We appreciate that.
    Mr. Sires. Thank you, Mr. Chairman, for making that 
suggestion.
    Chairman Royce. Thank you, Mr. Sullivan, for your testimony 
and being with us today. And thank you, Mr. Sires.
    We now go to Dan Donovan of New York.
    Mr. Donovan. Thank you, Mr. Chairman. Mr. Secretary, let me 
add my sincere gratitude to your service to our Nation as well.
    Recognizing we are not appropriators, in your efforts to 
redesign the State Department to better serve our Nation's 
interests throughout the globe, is there anything that this 
committee can do, legislatively or anything, to help in those 
efforts?
    Mr. Sullivan. Well, we will have a number of requests that 
we will come to this committee on with respect to our redesign 
effort. Just to give you an example, we have shared with the 
committee a letter from the Secretary that sets forth proposals 
for all of the special envoys that we have. It is almost 70. 
Some of those offices were created by statute, and what we 
propose to do with them, in consultation with the committee, 
may require legislation to effect change.
    So we will be coming to this committee with changes that we 
seek to help us with our redesign, and we very much want to, A, 
cooperate with you and consult with you on these proposed 
changes, but we will need legislation for some of them as well.
    Mr. Donovan. Thank you. Recognizing that a stable globe is 
very much in the interest of the United States' national 
security, our homeland security--and that is the other 
committee that I serve on besides Foreign Affairs--is there any 
redesign efforts that you are contemplating now involving 
USAID?
    Mr. Sullivan. Yes, there are substantial redesign proposals 
that are under consideration. However, I should state up front, 
one of them is not merging USAID into the State Department. So 
we have a number of proposals that we are considering with 
input from senior USAID officials to make USAID more efficient, 
to align our development policy with our foreign policy as we 
go forward, but we are not considering, at this point, merging 
USAID into the State Department.
    Mr. Donovan. Thank you, Mr. Secretary. Mr. Chairman, I 
yield the balance of my time.
    Mr. Sullivan. Thank you.
    Chairman Royce. We go now to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Deputy Secretary Sullivan, thanks for being here, and thank 
you for your service.
    Secretary Tillerson told our committee in June that 
throughout this redesign process, he said, ``we will work as a 
team and with Congress.'' And with all due respect, this has 
not felt like a team effort.
    Modernizing the State Department so that it can be as 
effective as possible in advancing national security and 
promoting U.S. interests abroad is a shared goal, but many of 
us, as you have heard today, are worried that this whole 
process is simply a downgrading of our diplomacy by another 
name. President Trump's proposed 30-percent cut of the State 
Department is particularly dangerous at a time when we need 
deft diplomacy and skilled statesmen to address the threats 
from Iran and North Korea, to promote peace in the Middle East, 
and to push back against Russian aggression both in the Ukraine 
and, frankly, here at home.
    In a time when foreign diplomats speak openly about how 
they look to the White House because the State Department is so 
understaffed, I would like to ask you, the State Department, 
about a few specific foreign policy topics to get an 
understanding of the administration's position.
    First, in the Middle East, we saw a brutal reminder of the 
challenges that Israel faces in its search for peace today when 
a terrorist killed three Israelis and seriously wounded others 
near Jerusalem. Meanwhile, in Gaza, Hamas continues to hold the 
bodies of slain IDF soldiers and Israeli civilians as 
bargaining chips. Earlier this month, I met with the parents of 
Lieutenant Hadar Goldin, who was killed by Hamas terrorists 
using an underground terror tunnel during a ceasefire in 2014. 
I have also met with the family of Sergeant Oron Shaul, who was 
also killed by Hamas in 2014. Hamas's refusal to return the 
bodies of these soldiers to their families for burial is an 
obvious violation of international law and basic human values.
    So, to where we are today. Jason Greenblatt is currently in 
Israel continuing the administration's push toward peace, but, 
for many of us, we are still in the dark about what that looks 
like. Mr. Greenblatt said last week that ``it is no secret our 
approach to these discussions departs from some of the usual 
orthodoxy, for, after years of well-meaning attempts to 
negotiate an end to the conflict, we have all learned some 
valuable lessons.'' So what I would ask you, Deputy Secretary 
Sullivan, is, what are those lessons that have been learned? 
What are the unorthodox approaches that you are pursuing? And 
is it this administration's intention to present its own peace 
plan?
    Mr. Sullivan. Thank you, Congressman. Yes, as you note, the 
White House, Jason Greenblatt, the President's Special 
Representative, and the senior adviser to the President, Jared 
Kushner, have been very deeply involved in negotiations between 
this administration and the Israeli Government and the 
Palestinian Authority. The President met with Prime Minister 
Netanyahu, with the leadership of the Palestinian Authority 
that last week. The President, himself, is personally committed 
to this process, as other Presidents have been.
    I think the commitment of this administration is clear to 
the peace process. I would have to defer to Mr. Greenblatt on 
what he specifically meant with those comments. I would say 
that Secretary Tillerson, though, has been involved as well. He 
was with President Trump when the President visited Israel in 
June.
    Mr. Deutch. Right, all of which we are aware of. Can you 
tell us whether it is the President's intention, the 
administration's intention to present its own peace plan?
    Mr. Sullivan. I would have to defer to White House on that, 
sir.
    Mr. Deutch. Okay. Next, moving on to Iran, the vice 
chairman of the Joint Chiefs said in July that it appears Iran 
is in compliance with the rules that were laid out in the 
JCPOA. Now, there are very real flaws in the JCPOA, including 
the problematic sunset provisions. However, in order to lead an 
international effort against Iran's ongoing support for 
terrorism, their support of the Hezbollah militias in Syria, 
the development of their missile program, all of which are 
outside the terms of the JCPOA, we are going to need the 
support of the international committee and our allies and 
partners in Europe. Wouldn't a decision not to certify 
compliance because of factors that are outside the JCPOA risk 
isolating us from our allies and making the job of combating 
Iran's malign activities in the region even more difficult?
    Mr. Sullivan. Well, the Secretary has said as late as last 
week that Iran is in technical compliance with the JCPOA. He 
said, as well, however, that Iran is in violation of the spirit 
of the JCPOA for all the malign activities that you have just 
described.
    We have been in close consultation with our allies to 
address both those malign activities and the flaws in the 
JCPOA, including the sunset provision. So the President will 
have a decision in October on whether to certify or not, but 
our work on Iran's malign activities and trying to improve the 
terms of the JCPOA will continue.
    Mr. Deutch. And, finally, Mr. Chairman, just if I may, my 
last question. As you know, Deputy Secretary Sullivan, Bob 
Levinson has now been held by Iran for more than the 10 years. 
The Levinsons were told that the U.N. General Assembly would be 
used as an opportunity to push forward Bob's case. Are you 
seeing any progress? And can you commit to us here that 
bringing Bob and the other Americans being unjustly and cruelly 
held by Iran will remain a priority for this administration?
    Mr. Sullivan. The Levinson case is a priority for this 
administration, as are all the other American hostages held 
worldwide. Just as a note, I have met and spoken with the 
Levinson family on multiple occasions. I have a picture on my 
desk of Bob Levinson, who reminds me every day that he is our 
longest-held hostage in Iran. And I have personal family 
experience with Americans being held hostage in Iran. This 
administration has no higher priority than bringing home all of 
those Americans, including Mr. Levinson. You have my word on 
that.
    Mr. Deutch. And I am profoundly grateful for that. Thank 
you.
    Mr. Sullivan. Thank you.
    Chairman Royce. We go to Lee Zeldin of New York.
    Mr. Zeldin. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here today and for your service to our 
country.
    The rising tide of anti-Semitism, both here in the United 
States and abroad, is of great concern for myself, for many of 
my constituents, for many Americans. The U.S. State 
Department's office responsible for monitoring and combating 
anti-Semitism has how many active members currently?
    Mr. Sullivan. I would have to get you that answer after 
this hearing. I can't tell you off the top of my head, 
Congressman. I apologize.
    Mr. Zeldin. And, previously, in responding to a question 
from one of my colleagues, you mentioned filling the Special 
Envoy position as a top priority for the State Department. Are 
there potential candidates being vetted? Where are we in that 
process? How imminent is this?
    Mr. Sullivan. Yes, there are candidates being vetted. 
Unfortunately, because a final decision hasn't been made, I 
can't disclose those names or where things stand. But you have 
my commitment that that position will be filled promptly.
    Mr. Zeldin. Thank you, Mr. Secretary. How many Under 
Secretary and Assistant Secretary positions are there at the 
State Department? Is it about 30?
    Mr. Sullivan. There are six Under Secretaries. Assistant 
Secretaries, there are more than 30, I believe.
    Mr. Zeldin. Yeah. Do you know how many of those positions 
are filled as of right now?
    Mr. Sullivan. Filled with confirmed officeholders? I can't 
give you a precise number. It is well below 50 percent and far 
fewer than it should be, and that is not a good--we are not 
pleased with that situation.
    Mr. Zeldin. And I want to see you be successful, I want to 
see Secretary Tillerson be successful. And I believe very 
strongly that it is very important for those positions to all 
get filled. We are here now at the end of September, and this 
first year for Secretary Tillerson is pretty close to an end. 
As you know better than I do, a lot of these positions get 
filled up with acting heads of these different offices, and I 
think that you all would be much more successful to fill those 
as quickly as possible. What is the timeline and goal for 
getting the remainder of these positions filled?
    Mr. Sullivan. Well, as I mentioned earlier in the hearing, 
we have 30 nominees that are pending now before the Senate 
Foreign Relations Committee. We have in the pipeline, so to 
speak, individuals who are undergoing vetting for many more 
positions. My hope is, subject to the Senate calendar, that we 
will get the vast majority of these positions filled by the end 
of November or beginning of December. But we are behind the 
curve. We should be ahead of the curve. And we are doing all we 
can to catch up.
    Mr. Zeldin. Thank you for that. I very much appreciate the 
administration's efforts, the State Department's efforts, 
Ambassador Haley's efforts at the United Nations as it relates 
to North Korea. I know that it is a very challenging situation. 
The timeline keeps shrinking of how quickly North Korea can get 
to that point where they have the capability to deliver a 
nuclear warhead to the United States, and that the State 
Department is working hard on getting multilateral diplomacy, 
ramping up economic pressure, the information effort within 
North Korea so that they understand that it is their own regime 
responsible for many of their struggles.
    And it is no small feat, what the administration has pulled 
off at the United Nations in getting a unanimous vote, 
including Russia and China, on a massive sanctions package, 
bringing China to the table more than ever before. And because 
the military option is absolutely the last possible option that 
anyone should want to consider, because there really is no good 
military option, I greatly appreciate everything that you are 
working on to increase that pressure and try to deal with North 
Korea situation.
    And while it may not get covered as much in the news, all 
those victories with regards to bringing China and Russia on 
board, I just want to let you know, on behalf of myself and my 
constituents, I am very grateful for your achievement so far, 
and I wish you much success, because it is certainly far from 
over. I yield back.
    Mr. Sullivan. Thank you.
    Chairman Royce. Thank you. We go to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. Welcome, Mr. 
Sullivan.
    You said that this is an employee-led effort, a visionary 
document with no predetermined outcomes. How can you say that 
when the President's budget already recommended a 32-percent 
cut to our State Department budget and USAID budget, estimated 
to slash $5 billion to $10 billion over the next 5 years?
    Mr. Sullivan. Well, I distinguish----
    Mr. Connolly. I mean, was that a bottom-up recommendation?
    Mr. Sullivan. No, that is the President's budget----
    Mr. Connolly. You need to speak into the mike.
    Mr. Sullivan. That is the President's budget----
    Mr. Connolly. Right.
    Mr. Sullivan [continuing]. Which we have to live with. And 
it is also a budget that is passed by Congress, ultimately. So 
we deal with the budget that we have, with the amounts that 
have been appropriated for this year and going forward. Apart 
from that, as I said earlier, whether or not we were going to 
have a budget decrease or increase----
    Mr. Connolly. I must--I am sorry. I only have 5 minutes. I 
take your point. But, candidly, if you are going to have a 
bottom-up, you know, re-org for the State Department and USAID 
and they already know there is going to be a third cut, you 
know, leading to the attrition or the layoff of somewhere 
probably north of 2,000 employees, I would say that puts a 
little damper on my enthusiasm on the bottom-up effort to 
reorganize State Department because I am worried about my own 
job security. And I wonder how sincere the effort is if, in 
advance, I have already been told what the parameters are.
    Mr. Sullivan. The budget parameters are only one aspect of 
the redesign----
    Mr. Connolly. A pretty big, important one, though, isn't 
it?
    Mr. Sullivan. It is an important one----
    Mr. Connolly. Yeah.
    Mr. Sullivan [continuing]. As is our----
    Mr. Connolly. And it sends a message, doesn't it? I mean, 
what kind of----
    Mr. Sullivan. The budget----
    Mr. Connolly [continuing]. Message does that send to 
these----
    Mr. Sullivan. The budget is----
    Mr. Connolly [continuing]. The bottom-up process, to those 
employees in terms of the value of their work?
    Mr. Sullivan. The message----
    Mr. Connolly. Yeah.
    Mr. Sullivan [continuing]. That the Secretary has sent to 
those employees, the 75,000 men and women of the Department of 
State, is they are enormously valued by him, by us, and their 
service is recognized every day.
    Mr. Connolly. Well, I am sure he means it, but to some 
employees, especially many I represent in my district, that 
sounds like empty rhetoric, frankly, Mr. Sullivan. Because the 
fact is we have a President and a budget that would cut a third 
of their budget, and that doesn't seem like a real high value 
being put on their work. Would you argue that, in the course of 
this process, morale is high at the State Department and the 
USAID?
    Mr. Sullivan. No.
    Mr. Connolly. Why not?
    Mr. Sullivan. I think there is uncertainty. We are doing 
our best to reduce that uncertainty. This testimony by me today 
is part of that process. I have had a townhall meeting with 
employees. I have had small-group meetings with employees. The 
Secretary has initiated a regular outreach, both by email and 
in person, with employees. We are doing all we can now to 
reassure them that this process is employee-led, they are 
valued, and diplomacy is valued by this Government and by this 
Secretary.
    Mr. Connolly. So let me--okay. Good to hear. I hope they 
believe it. And I hope the actions corroborate what you have 
just said. Do you believe that USAID should be folded into the 
Department of State, or is that still an open question?
    Mr. Sullivan. No. No.
    Mr. Connolly. No, it is an open question?
    Mr. Sullivan. It is not--no, it is not an open question. As 
I testified earlier today, there is no intention to merge USAID 
into the State Department.
    Mr. Connolly. Do you believe that USAID should be, in fact, 
enhanced, the role of the USAID Administrator enhanced, as the 
lead development office of the United States Government?
    Mr. Sullivan. I believe that the role of USAID should be 
enhanced, made more effective and more efficient.
    Mr. Connolly. Well, good. I am glad to hear that, actually. 
I have a bill maybe you want to take a look at that would do 
just that.
    Mr. Sullivan. I would be happy to.
    Mr. Connolly. Because part of the problem I am concerned 
about is that, over the years, we have seen sort of a diffusion 
of things--all with good purpose--whether it be, you know, HIV/
AIDS, whether it be Africa, whether it be other special 
programs to help certain mid- to advanced countries, and what 
it has done is disperse the focus of U.S. development 
assistance. And it seems to me that that is not a very good 
management model. So I would be glad to work with you and hope 
you will work with us in trying to take a fresh look at that.
    Do you believe that--well, let me ask this question. We 
have a famine going on in Africa right now. Do you believe that 
USAID and the State Department are currently well-equipped to 
respond to that famine? And then my time is up.
    Mr. Sullivan. We are not doing as much as we should be to 
respond to that famine. We should do and will do more.
    Mr. Connolly. Thank you. And thanks for your refreshing 
testimony. I appreciate it. Thank you, Mr. Chairman.
    Chairman Royce. Ann Wagner of Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for holding this 
hearing. And I thank you, Deputy Secretary Sullivan, for making 
the time to be with us today.
    I appreciate your leadership and am keen to watch the State 
Department redesign process unfold. As a former United States 
Ambassador who spent 4 years at State, I am well aware that the 
State Department is a bloated bureaucracy, and reassessing 
everything, from hiring, to diplomatic programming, to cutting 
unnecessary departments, is critical to advancing U.S. 
diplomacy into the 21st century. I believe that we can balance 
the State Department's checkbook while promoting American 
leadership and strength, and I trust you and Secretary 
Tillerson to make those difficult calls.
    One of my longtime concerns is that State Department 
deployments are not well-balanced to reflect the importance of 
American leadership in the Asia-Pacific, in particular. Despite 
the U.S. rebalance to Asia, it appears that we still have very 
large Embassies in Western nations, where I served, and, 
relative to the conflict that we are facing, insufficient staff 
at our Asia postings. Are you considering rebalancing the 
number of Foreign Service Officers who are posted in China, 
South Korea, India, and the ASEAN nations to account for our 
interests in the Asia-Pacific?
    Mr. Sullivan. Yes, absolutely, Congresswoman Wagner. That 
is one of the priorities of the redesign, is to rebalance our 
footprint. The chairman raised the issue of closing posts. It 
is not so much closing posts as rebalancing----
    Mrs. Wagner. Rebalancing. Correct.
    Mr. Sullivan. Exactly.
    Mrs. Wagner. What is our timeframe, sir?
    Mr. Sullivan. The redesign we are looking at implementing--
subject to consultations with this committee and others in 
Congress over the next several months, the rebalancing will be 
a process that is ongoing and should start immediately and 
continue through our tenure in office. I think it will be an 
ongoing process as challenges rise and we find the need to have 
more Foreign Service Officers, Civil Service Officers at 
particular posts.
    Mrs. Wagner. Let me shift gears here a little bit, Mr. 
Secretary. The last administration fought to lift sanctions 
against Burma and give the country GSP status, but violence has 
raged on. And we are going to be having, thanks to the 
leadership of Chairman Yoho, a hearing on that this week. How 
is the State Department actively responding to the ethnic 
cleansing of Rohingya Muslims in Burma, and how will the U.S. 
protect this persecuted community?
    Mr. Sullivan. Well, our outreach has started at the top 
with Secretary Tillerson. And our Ambassador is working very 
hard and looking to go up to the region this week. We have 
committed already $32 million to address the crisis. More to 
follow, and a lot more intensive effort for our department, 
because this is, as I testified earlier, it is not a Burma 
problem, it is not a problem for Bangladesh or the United 
States, it is a global problem. The scale is tragic.
    Mrs. Wagner. I agree, and timely also, as we have seen 
400,000 refugees in the last week move on to Bangladesh.
    Syria Civil Defence rescue workers have reported that they 
have been directly targeted by Russian forces, even though they 
are in a ceasefire zone and should be protected by medical 
neutrality. What is State Department doing to address violence 
committed by Russia in Syria?
    Mr. Sullivan. We have established a military-to-military 
chain of communication. The U.S. Department of Defense, from 
the chairman on down, has been in contact with their 
equivalents in the Russian Defense Ministry. That coordination 
and deconfliction has, for the most part, over the course of 
this summer, worked well. But there have been breakdowns, 
including recent breakdowns, that we are addressing 
immediately, in person, with our military's Russian 
counterparts.
    Mrs. Wagner. Good. Well, I thank you on that. And I will 
yield back my time----
    Chairman Royce. Will the gentlelady yield for just a 
minute?
    Mrs. Wagner. Yes, I will. I just wanted to say that if you 
are interested in input from a Member of Congress who served at 
the State Department in your rebalancing efforts, I have a lot 
of ideas. So I yield back my time.
    Mr. Sullivan. Look forward to hearing them.
    Mrs. Wagner. Thank you.
    Mr. Sullivan. Thank you.
    Chairman Royce. I appreciate the Ambassador, Mrs. Wagner, 
yielding.
    The question she brought up about the Rohingya issue is one 
that I raised with you yesterday and raised with the Secretary 
of State. And that is, we have to figure out a way to get 
across to the military government in Burma that they have to 
pull the militia and the military out that are engaged right 
now in burning those villages.
    There are 400,000 Rohingya people who have fled over the 
border, as you know, into Bangladesh. They need to be welcomed 
back in. It is not enough to have statements from the 
Counselor. She is not Commander-in-Chief. Their system reserves 
that for their military in Burma. And this requires not just 
international pressure but a very focused amount of pressure on 
the Burmese Government to get USAID, get the U.N. in, in terms 
of being able to assist those in Rakhine State who have faced 
this ethnic cleansing, and also requires the press being on the 
ground. So, again, I just reiterate the important role that we 
must play in achieving this. We have a hearing coming up, I 
think later this week, on this subject.
    I also just wanted to raise an issue. Yesterday, Karen Bass 
and I were with the Liberian President. Now, that election is a 
month away, and so let me just put this question to you. I 
understand one of the things you are trying to do is get the 
versatility to be able to transfer or get the reforms in place 
where you can quickly do a deployment. So if we have more 
people in the Embassy in Switzerland than we do in Liberia, and 
Liberia has an election next month, can you deploy right now 
from Europe--because we have been a decade late in making these 
realignments--can you deploy to the ground to make sure that 
fair and free elections, which is what is trying to be 
engineered here by Ellen Johnson Sirleaf, the President of 
Liberia, takes place?
    Mr. Sullivan. We can, but it is a huge challenge for us. I 
will give you an example: The recent elections in Kenya--a huge 
logistical undertaking by the Department of State. We are going 
to have to go through this again when the new elections occur. 
We are going to have to do this in Liberia. It is logistical 
challenge for us. We need more flexibility and authorities to 
do that. And it is part of--when we talk about----
    Chairman Royce. Let us know precisely now. We understand 
how long the wait is going to be here, and then the OMB is 
going to review. Let us know this aspect of it now so that I 
and the ranking member and Congresswoman Bass and Mr. Smith can 
work on legislation to specifically rectify this situation 
immediately. And I appreciate that.
    We go to Congresswoman Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chair, especially for your 
leadership on these issues. Mr. Secretary, I would like to ask 
you three quick questions.
    One, I wanted to ask you about the diversity fellowships. 
And let me begin by saying that I really appreciated Secretary 
Tillerson's statement--and I appreciate the timing that he made 
the statement as well--the State Department's commitment to 
diversity. So, specifically, I wanted to ask you about the 
Rangel Fellows and the Payne Fellows. And I wanted to ask, and 
I don't want to assume, but that those fellowships will be 
continued?
    Mr. Sullivan. Yes, Congresswoman Bass, those fellowships 
will be continued and are very important to our efforts in 
bringing in new talent to the Department.
    Ms. Bass. Thank you very much. In August, Secretary 
Tillerson sent a letter to several Members of Congress 
effectively stating that the Acting Assistant Secretary for the 
Africa Bureau already fulfills the responsibilities that have 
previously been performed by the U.S. Special Envoy to Sudan 
and South Sudan. And I know one of my colleagues asked you a 
question about special envoys earlier, but I wanted to 
specifically ask if that is going to be the case, if the 
Special Envoy will be eliminated for Sudan and, in particular, 
South Sudan, considering the instability in that nation?
    Mr. Sullivan. Well, thank you, Congresswoman Bass. I 
believe that is one of the special envoy positions for which we 
would need a statutory change.
    Ms. Bass. Oh.
    Mr. Sullivan. So we will need to come to this--I could be 
wrong about that, and I will have to get back to you to 
confirm, because I am just relying----
    Ms. Bass. So that means, as of now, you can't change it?
    Mr. Sullivan. We have to seek--if we were to make changes 
to that office----
    Ms. Bass. Okay.
    Mr. Sullivan [continuing]. I believe we would require a 
change to the statute.
    Ms. Bass. Good. We will follow up on that as well. And then 
a few moments ago, when my colleague was asking you about the 
famine, you said that we could be doing more.
    Mr. Sullivan. Yes.
    Ms. Bass. And I was wondering what your opinions were. We 
did authorize in the CR a couple of months ago close to $1 
billion. And I went to the region with Mr. Smith, and I was 
wondering, one, has all of that money been allocated, and is it 
on the ground? We were concerned that some of it would be used 
as carryover, and we didn't want to see that happen.
    Mr. Sullivan. I will get you the precise figures, 
Congresswoman Bass. I would be disappointed in the extreme if 
it is not.
    Ms. Bass. Okay.
    Mr. Sullivan. But I will confirm that for you.
    Ms. Bass. I would appreciate that. I would like the 
figures, and I would like to know where----
    Mr. Sullivan. Of course.
    Ms. Bass [continuing]. Considering it was spread over four 
countries. And then also, a minute ago, you were referencing 
the special--or the election, rather, in Kenya.
    Mr. Sullivan. Yes.
    Ms. Bass. I was there as an observer. And you mentioned 
that we had to deploy a lot. What did we do? Because I didn't 
see that.
    Mr. Sullivan. Diplomatic security, among other things, for 
election monitors. So there were a number of groups that came 
to monitor the elections, and we----
    Ms. Bass. Right. I was part of that.
    Mr. Sullivan. Yes.
    Ms. Bass. We provided diplomatic security?
    Mr. Sullivan. Yeah, diplomatic----
    Ms. Bass. I know you did for me.
    Mr. Sullivan. The diplomatic security--in fact, I met with 
Diplomatic Security about their needs. The requirements for 
diplomatic security made by the Embassy in advance of the 
election went well beyond what we would have otherwise 
anticipated for that Embassy. So there was a substantial 
commitment of security resources to make sure that Americans 
would be protected in the event that there had been violence, 
as there had been in the two elections prior.
    Ms. Bass. I see. So then the diplomatic security you were 
referring to was housed at the Embassy?
    Mr. Sullivan. And there were also posts around the country 
where we had other Americans that we needed to protect.
    Ms. Bass. And, Mr. Chair, if you don't mind, when you were 
referring to support needed in Liberia, were you referring to 
diplomatic security, or were you referring--what were you 
referring to?
    Chairman Royce. Well, because the election on the ground is 
going to require all kinds of monitoring, it is a good 
opportunity to have the full comportment of security in place 
but also engagement on the part of the United States. I imagine 
we are going to try to have NDI and IRI----
    Ms. Bass. Right.
    Chairman Royce [continuing]. On the ground. All of that 
requires a tremendous amount of--you and I have both been 
involved, I think, in the past. I have been involved in these 
elections, where you come in, you spend, you know, a week, and 
you try to engage in making certain that everything is in place 
for what is going to be a tremendously complicated undertaking. 
And to the extent that you have the staff there from the U.S. 
Embassy to assist, it is very important.
    So what is at risk here is being able to get the ability, 
the discretion, on the part of the Secretary of State to move 
personnel. And, unfortunately, we are sort of locked in. And 
that is something that I think we could all agree would be a 
necessary change. You might not like the transfer momentarily, 
temporarily from Switzerland to a situation where you had the 
war-torn results, where we are trying post-conflict to have 
another successful election there, but that should be the 
decision of those of us in Congress with oversight 
responsibility and our Secretary of State. And that is where I 
am trying to drive the policy.
    Ms. Bass. All right. Well, thank you very much, and I will 
await your responses about the famine.
    Thank you. I yield back.
    Chairman Royce. We go now to Francis Rooney of Florida. 
Ambassador Rooney is here.
    Mr. Rooney. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    I am glad to read that you are going to upgrade IT. I think 
when I was serving in Rome we had, like, Windows minus 1. Well, 
just one quick question. There has been some discussion about 
the consular activities maybe going to Homeland Security. And 
we have 40 percent of the people in this country illegally 
overstayed visas. And 700,000 people overstayed their visas 
last year. So the question I have is, can the State Department 
adequately deal with the overstay problem in the United States, 
or should that part go to Homeland Security?
    Mr. Sullivan. I think the overstay problem here in the 
United States is something that should be and is being 
addressed by the Department of Homeland Security. I think 
consular affairs and the role of the consular officer at the 
Embassy in screening visa applicants and so forth is an 
important function of the Department of State. So there is no 
plan to transfer consular affairs to DHS. But there is 
definitely an overstay problem.
    Mr. Rooney. Okay. Thank you. That is all I was going to ask 
about.
    Chairman Royce. We go now to Mr. Bill Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chair. And I want to thank the 
Deputy Secretary. I enjoyed our conversation before.
    The second of the proposals that you had was maximizing the 
impact of foreign assistance or aligning foreign assistance 
with foreign policy goals. And here is a question I have: We 
had a question earlier on by one of our members about 
respecting culture. And we have also had President Trump signal 
maybe some changes in terms of how we approach autocratic 
regimes, sort of giving them--just leaving them alone or not 
being as involved as we were. Could you comment? Is this a 
change in our foreign policy? Because my understanding has 
always been that our foreign policy goals reinforce our basic 
American values, values like rule of law, freedom of the press, 
freedom of religion, human rights, civil rights, gender 
equality, respect for minorities in those cultures. Now, is 
that a change, frankly, the President's remarks?
    As well as maybe the thoughts behind the question of 
respecting culture. When we are dealing with these autocratic 
regimes that act at odds with basic American values, are we 
going to still reinforce those values? And, indeed, is that 
going to be something that is factored in when we are aligning 
foreign assistance to these countries?
    Mr. Sullivan. Yes, Congressman Keating, our American values 
are, for us at the State Department and for me as an American, 
they are immutable, and we are committed to them. And it is a 
difficult line we walk in dealing with foreign governments that 
have different institutions and cultures, and we walk a fine 
line. But let me give you an example to support my contention 
that we don't have a change in policy. With, for example, our 
foreign military--FMF program with Egypt, the Secretary has 
withheld $195 million. It has been notified, it has been 
obligated to be spent, but it is being withheld until the 
Egyptians show some progress on issues related to human rights 
with, for example, the treatment of NGOs.
    It is an issue we confront every day, and we have to walk a 
fine line, but we never deviate from our values. We protect 
Americans' national security, promote our prosperity, but never 
undermine our values.
    Mr. Keating. Well, thank you for reaffirming that. And in 
terms of NGOs and working with them, the State Department when 
they are reducing some of the budget items they have, is that 
going to affect the collaboration with NGOs, the 
nongovernmental organizations, on the ground because of the 
hiring freeze or reorganization? Will we still be able to 
support a very robust engagement with these NGOs when they 
reflect these American values? Do you see these changes in 
budget cuts or reorganization affecting that arrangement?
    Mr. Sullivan. There wouldn't be any policy to change our 
relationship with NGOs. There may be, incident to changes in 
our budget, where our relationship with a particular NGO might 
change. But we will continue to implement U.N.'s foreign 
policy, particularly development assistance, as necessary 
through NGOs.
    Mr. Keating. And the Women, Peace, and Security Act passed 
the Senate and just passed the House, and it is on its way to 
the President's desk right now. And that makes sure that women 
are meaningful participants at all levels of foreign 
policymaking and implementation, and it requires commitment and 
resources to do that. With that reaching the President's desk, 
is that something, again, that we are going to reaffirm? 
Because that policy change is something that was in place in 
the last administration. Is that going to carry forward?
    Mr. Sullivan. I think the senior adviser to the President, 
Ivanka Trump, would strongly reaffirm that that is the policy 
of this administration, as the President would. We are 
committed to that at the Department of State.
    One thing I would note for you, Congressman, is that one 
thing that has astounded me is, in talking about diversity at 
the State Department, the number of women we have in the 
Foreign Service and the Civil Service has actually decreased, 
particularly at the senior levels, over the last 8 years or so. 
We have to do a better job on promoting women in the State 
Department, in our Foreign Service, and we are committed to it.
    Mr. Keating. Great. Thank you for making sure that is clear 
and for reaffirming that. And thank you for your presence, and 
I look forward to working with you in the future.
    Mr. Sullivan. Thank you.
    Mr. Keating. Thank you. I yield back.
    Chairman Royce. Representative Ted Yoho of Florida, 
chairman of the Asian-Pacific subcommittee.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate you being 
here, Deputy Secretary Sullivan.
    I was at a meeting, probably a year ago, and there was a 
lot of the current and retired generals in there talking about 
a major world tectonic shift in world powers that we haven't 
seen since 1942. And the State Department being around since 
1789 as the first Cabinet agency, with you in the position you 
are in now, you are able to step back, look at the State 
Department as a whole, probably that it has never looked at 
before, in reform. And I would have to ask, when was the last 
time there has been a major transformation or reform of the 
State Department?
    Mr. Sullivan. There have been efforts at reform that have 
not been as successful as they should have been----
    Mr. Yoho. Right.
    Mr. Sullivan [continuing]. Including in the mid-1990s. I 
would contrast that with efforts at reform at the Department of 
Defense, where I have also served, that have been more 
successful in about the same time period. So I think the 
Defense Department has done a better job of reorganizing----
    Mr. Yoho. So this is an unprecedented moment in time. And I 
look forward to working through this to reform it and find out 
what works well and what doesn't work well and get rid of those 
things that don't, and let's make those things that are working 
well more efficient so that we can get more bang for the buck, 
especially in these times of economic constraint.
    With that being said, what places do you think we need to 
redirect--and keep in mind--and this builds on what Gregory 
Meeks brought up about the geopolitical knowledge. We have seen 
how it failed in Robert Gates' book ``Duty,'' how we didn't 
take the geopolitical, the customs of the area, the tribal 
culture in Afghanistan and Iraq, and we didn't get the results 
we wanted, obviously, and how we can take that knowledge as we 
move into different areas as there are these different 
conflicts starting to develop and use that more to our 
advantage to create policies so that we get more favorable 
results in a timely manner. Where do you see we need to focus 
more on that we haven't?
    Mr. Sullivan. Well, I think as a starting point, I would 
want to see a more diverse State Department, that we have more 
diverse viewpoints contributing to the formulation of policy, 
whether it is veterans, women, minorities, language, culture, 
expertise. Bringing all of that to bear, all of the strengths 
that our country has, bringing those strengths to bear on these 
diplomatic challenges, combined with working with our 
intelligence agencies and our experts at the State Department 
to address all of those issues that you have raised, whether we 
are dealing with a conflict in Syria, in South Asia, in 
Mindanao in the Philippines.
    Mr. Yoho. Right.
    Mr. Sullivan. Very different areas.
    Mr. Yoho. It really is. And we are seeing the escalation in 
radical groups showing up. You had brought up--and I want to, 
just for the record, reiterate this. The amount of people--you 
said you are 50-percent staffed, or understaffed, I guess. But 
yet the amount of people that have nominated that haven't been 
confirmed by the Senate--that is where the holdup is, the way I 
understand it, correct?
    Mr. Sullivan. Well, I want to be fair to the Senate. A 
number of those--we have 30 nominees pending.
    Mr. Yoho. That is all right. This is the House.
    Mr. Sullivan. They haven't been pending for 6 months. Some 
of them have been pending for only a relatively short period of 
time. But they have all come out of the pipeline, and they are 
now sitting before the Foreign Relations Committee.
    Mr. Yoho. Okay. And then Burma had come up, and you talked 
about the $32 million to start to address the Rohingya 
situation in Burma. I would hope, as we move forward, as you 
are redirecting this, that--we have known about this escalating 
over probably the last 5 years, and we have seen it build up. 
So, instead of investing the $32 million now--which we have to, 
but I would hope that we would have the foresight, as we see 
this arising and starting to become inflamed, that we do a 
better job on the front end so that maybe we can deescalate 
this. What are your thoughts on that?
    Mr. Sullivan. Yeah, you are absolutely right. This is not a 
problem that just arose over the summer----
    Mr. Yoho. Right.
    Mr. Sullivan [continuing]. Or this month.
    Mr. Yoho. And that is so true on so many of the conflicts 
we have around the world. That is where I hope that, with your 
leadership and Secretary Tillerson's, we can look at that and 
say, ``These are hotspots. We need to get in here now,'' so we 
don't have 400,000 refugees in the last couple months and over 
1 million displaced that will be the next hotspot, that we need 
to do now. What are your thoughts, where we need to really 
focus?
    Mr. Sullivan. Well, right now, even though we should have 
anticipated this, we are now stuck with the problem we have, 
with the hundreds of thousands of refugees. So we have got to 
work with allies, partners, others, the U.N. We can't--it is 
not a United States problem. Thirty-two million from us is a 
drop in the bucket. We have to get other countries and the U.N. 
involved as well.
    Mr. Yoho. And I would hope--I am going to offer this 
through our committee, and the chairman, I think, would 
probably be okay with this. Use this committee as a tool to get 
the legislation or direction that you need to direct the 
policies that we need, okay? And I thank you for your time. And 
I yield back.
    Mr. Sullivan. Thank you.
    Chairman Royce. And I concur with the gentleman. We go to 
Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary.
    I think as you outlined the purposes of the redesign plan 
in terms of streamlining and maximizing efficiencies and 
avoiding duplication, I think we all agree with that. In fact, 
every agency of the Federal Government should be engaged in 
that work on an ongoing basis.
    But I think one of the things that sort of troubles me a 
little bit about this process is that the Secretary of State 
sent out a memorandum and an email indicating that this 
redesign would generate, and I quote, ``a minimum deliverable 
of 10 percent ($5B) in efficiencies relative to current 
spending over the next 5 years, with an aspirational general 
interest target of up to 20 percent ($10B).'' So my first 
question is, where do those figures come from----
    Mr. Sullivan. Right.
    Mr. Cicilline [continuing]. The $10 billion? What data did 
you rely on to come up with them?
    And isn't it sort of a perversion of the process that you 
have--unless it is just about cost-cutting--that you have as 
really the only stated goal cost-cutting in these amounts 
before the process has even begun?
    Mr. Sullivan. Sure. Well, very good questions, Congressman.
    First, on the budget numbers, to give you an example, the 
amount of money we spend now for legacy IT systems, just to 
keep them running, is staggering. So we spend for outdated 
systems, to keep them patched and running, huge amounts of 
money. So----
    Mr. Cicilline. No, no--I don't want to interrupt, but I do 
have a limited time. But I guess my question is, where did 
those amounts come from at the beginning of the process? You 
are talking about IT as one of the strategies, but----
    Mr. Sullivan. Right.
    Mr. Cicilline [continuing]. Who came up with the $10 
billion and $5 billion cuts? They were just pulled out of the 
air?
    Mr. Sullivan. Those aren't cuts. Those are efficiencies 
that we expect from the process that will result--we are not 
saying up front we are going to cut $5 billion. What the 
Secretary said is, when we implement these new processes, 
procedures, and efficiencies, we expect $5 billion in savings.
    If we don't get that, we don't get that. We will be 
disappointed; we will have not accomplished what we hoped to 
achieve. But we are not setting out with a $5 billion cut.
    Mr. Cicilline. Thank you, Mr. Secretary.
    Mr. Secretary, members of this administration have given 
mixed messages when it comes to the role of democracy and human 
rights in our foreign policy.
    My colleague Brendan Boyle and I sent a letter to Secretary 
Tillerson on August 11 raising our concerns about reports that 
democracy promotion was possibly going to be taken out of the 
State Department's mission statement. We received a reply from 
the State Department saying that the Department agrees that 
democracy promotion has been and should be a cornerstone of 
U.S. foreign policy. However, this response doesn't actually 
answer the question of whether democracy promotion will remain 
in the State Department's mission statement. So my first 
question is, will it remain in the mission statement?
    Mr. Sullivan. Yes.
    Mr. Cicilline. My second question is, the expression of 
support for democracy and human rights matters, but you also 
have to view it in the context in which we are currently 
operating: The President of the United States who continues to 
express admiration for the thug Vladimir Putin; a President who 
called to congratulate President Erdogan when a referendum 
passed that undermined a basic rule of law; a President who 
invited President Duterte from the Philippines to come to the 
White House; and Secretary Tillerson, who says Americans should 
not impose their values on others.
    So, in that context, is somebody in the State Department 
speaking to the President about the consequences of that kind 
of mixed message, that you have a State Department where it is 
recognizing democracy and human rights as an important value 
that we are going to promote around the world, and the 
President of the country is doing things to undermine that 
important message?
    I mean, it is important to recognize it is not just 
promotion of democracy and human rights for the sake of it. It 
is because it is also important to the stability of the world, 
to the ability of our American businesses to invest, and all 
the, kind of, other consequences that democracy brings.
    Mr. Sullivan. For all the reasons you state, Congressman, 
it is exceptionally important to us that we be committed to 
promoting democracy. It is necessary for our own national 
security that other countries are secure and stable and, as you 
point out, for example, that our businesses have stable, open 
markets with democratic governments in which to do business.
    Mr. Cicilline. But how do we manage that objective with the 
declarations of the President of the United States which 
directly undermine that message?
    Mr. Sullivan. Well, the President has to deal with--as I 
discussed earlier, we have to deal with governments that are 
undemocratic, whether they are----
    Mr. Cicilline. Well, dealing with them and praising them 
are two different things.
    Mr. Sullivan. Well, I will defer to the President on how he 
deals with particular world leaders, but our commitment to 
democracy at the State Department on behalf of the Secretary is 
unwavering.
    Mr. Cicilline. If I can just get in one last question. As 
you know, U.S. foreign assistance programs are really critical 
to advancing the stability and growing economies of developing 
countries, which are vital to U.S. national security interests, 
and it can help us avoid costlier conflicts. As former Defense 
Secretary Robert Gates noted, ``Development contributes to 
stability. It contributes to better governance. And if you're 
able to do those things and you're able to do them in a focused 
and sustainable way, then it may be unnecessary for us to send 
soldiers.''
    Do you share the view of Secretary Gates and many of our 
military leaders that robust investments and civilian foreign 
assistance and diplomacy budgets are necessary for effective 
U.S. leadership in the world? And if you do, how do you square 
that with the proposal to cut 32 percent of the State 
Department budget by President Trump?
    Mr. Sullivan. The answer to your first question is 
emphatically ``yes.''
    The answer to your second question is it is on us to manage 
the State Department in a more efficient and effective way and 
spend the money that the President has asked for, but Congress 
appropriates and spends the budget we have in an effective and 
in an efficient way and promote and implement that diplomacy to 
promote our national security and our economy.
    Mr. Cicilline. But you don't think you can----
    Chairman Royce. Ron--Ron----
    Mr. Cicilline [continuing]. Do that with a 32-percent cut 
in your budget, do you, Mr. Secretary?
    Mr. Sullivan. I am sorry?
    Mr. Cicilline. You don't think you can do that successfully 
with a 32-percent cut in your budget, do you?
    Mr. Sullivan. I believe we can. I believe we can.
    Mr. Cicilline. Thank you, Mr. Chairman, for the courtesy. I 
yield back.
    Chairman Royce. Thank you. We go to Mr. Ron DeSantis of 
Florida.
    Mr. DeSantis. Good morning--or afternoon.
    In May, when the President signed the waiver under the 
Jerusalem Embassy Act forestalling moving our Embassy in Israel 
to Jerusalem, he said we will in fact move it, it is just a 
matter of time. So will we move it? And when are we going to 
move it?
    Mr. Sullivan. Two questions. The first, yes, the President 
is committed to moving it. The decision on when to move it is a 
strategic and tactical decision that the President himself, in 
consultation with the Secretary, will have to make. But the 
President has been quite clear in his commitment on that.
    Mr. DeSantis. So the State Department's view is that is the 
President's policy. Obviously, he has to pull the trigger, but 
your agency is going to facilitate that move when it happens, 
correct?
    Mr. Sullivan. We work for the President.
    Mr. DeSantis. Okay. Number two, we are talking about the 
Palestinian Authority. They will take money--some of it comes 
from the United States--and they will fund families of 
terrorists who murdered Jews. They will name stadiums after 
terrorists. And we have a bill in the Congress, the Taylor 
Force Act, that is trying to address at least some of that. 
Does the administration support the Taylor Force Act?
    Mr. Sullivan. I am aware of the bill. I don't know whether 
we have issued an administration policy on that bill. But I 
will say that we at the State Department are certainly opposed 
to all of those things that you have just said that the 
Palestinian Authority does.
    Mr. DeSantis. Great. For the Iran deal, this idea of 
technical compliance. I mean, is it true that Iran has exceeded 
on numerous occasions the amount of heavy water stocks that 
they are permitted under the JCPOA?
    Mr. Sullivan. I am venturing into an area that I don't have 
sufficient expertise in, but I will offer the following. My 
understanding is that there have been instances, such as you 
cite, where the Iranians may have gone over the line, but they 
came back down.
    Mr. DeSantis. Well--and they have buried that. What about 
operating more advanced nuclear centrifuges than were allowed 
under the JCPOA? That has happened as well.
    Mr. Sullivan. Yeah. I am going to have to defer to the 
experts on that, but----
    Mr. DeSantis. So here is the issue, I think, in terms of 
the advice that the State Department has given to the 
President. The President does not like this deal. He campaigned 
saying it was bad. His U.N. speech was very clear that this was 
not a good deal. We see what is happening in North Korea right 
now--very difficult decision. Five, 10 years into the future, 
if this deal continues as is, it is going to be the same thing, 
maybe even more intractable at that point. And so to simply 
recertify it as being within our national security interest, 
you know, I think would be a mistake.
    The Muslim Brotherhood, there is a lot of nefarious 
influence that they have. The President has said that, other 
members of the administration. But yet, they have not been 
designated as a foreign terrorist organization by the State 
Department. Why not? And is there a possibility that State will 
designate them as such?
    Mr. Sullivan. I understand that that issue has been under 
review, not just now but in the past. I don't have a----
    Mr. DeSantis. Is it currently still under review?
    Mr. Sullivan. I will have to get back to you on that, 
Congressman, but----
    Mr. DeSantis. I know it was earlier. We haven't heard as 
much about it. And so, if a decision has been made that you 
guys don't want to identify them, then we would like to know 
that. So if you can get back to me, I would appreciate it.
    Mr. Sullivan. I will get back to you on that.
    Mr. DeSantis. Cuba. You know, we see these attacks on your 
personnel. You acknowledge, I mean, Cuba is a totalitarian 
country. There is not much that goes on on that island that the 
government doesn't know about.
    So isn't it reasonable to say either Cuba was directly 
responsible for this or they at least knew and know who is 
responsible for it?
    Mr. Sullivan. That is certainly a reasonable suspicion. I 
don't know that, but it is reasonable suspicion.
    I say that on the basis of the fact that my family--my wife 
is a Cuban American. Her uncle was a political prisoner for 27 
years in----
    Mr. DeSantis. Then I can only imagine what she would infer 
about the regime.
    Mr. Sullivan. She told me last night, ``They know.''
    Mr. DeSantis. Okay.
    Mr. Sullivan. As a United States Government official, I 
don't know that.
    Mr. DeSantis. Well, the question is, though, what are we 
going to do? Obviously, we just can't let this happen and not 
do anything.
    Mr. Sullivan. We have two issues. We have, first and 
foremost, the health and safety of our employees and their 
families who are down there, to make sure that they are 
protected and cared for. And then, second, we have our policy 
with respect to the Government of Cuba. Our expectation is for 
them to comply with the Geneva Convention and, if they are not, 
to do something about it.
    Mr. DeSantis. I hope you guys do. I mean, I think we need a 
response to this. Obviously get the facts and don't do anything 
rash, but this is unacceptable.
    My final question is, as we look at the North Korea 
situation, how does the State Department view Kim Jong-un in 
terms of his rationality? Does he appreciate a response if he 
were to do some of the things they are talking about? I mean, 
he is a young, plump, immature kid. And we don't have as much 
information, it seems, on him, because of the nature of regime. 
How does the State Department view Kim Jong-un?
    Mr. Sullivan. I would defer to the intelligence agencies on 
their assessment of the leader of North Korea. We are 
approaching this as we are dealing with a government, and 
assuming that they are rational, and that the pressure campaign 
that the Secretary of State has led, the significant pressure 
campaign, will influence them through the pressure that is 
being brought to bear by--not just by the United States, but by 
China, Russia, and other members of the U.N. who are applying 
the U.N. Security Council resolutions. We are going to do all 
we can to give diplomacy a chance to resolve this problem.
    Chairman Royce. Okay. We have got a meeting with the South 
Korean Foreign Minister at 12:30. So we are going to get to 
everyone here, but we will keep it to 5 minutes. We go to Dr. 
Ami Bera.
    Mr. Bera. Great. Thank you, Secretary Sullivan. I 
appreciate your candor, actually. And, thinking about where we 
are right now and thinking about some of the comments of some 
of my colleagues, one of the responses in response to Mr. 
Connolly from Virginia, again, I think I heard you correctly 
that in your own understanding, morale right now within the 
Department is not high, is that correct?
    Mr. Sullivan. Correct.
    Mr. Bera. So that is obviously a challenge. In the results 
of your own survey, which you have referenced a number of 
times, those findings also suggested that many of the employees 
don't feel the support of the President and the Secretary. Am I 
interpreting those findings correctly?
    Mr. Sullivan. I am sorry. Could you say that again?
    Mr. Bera. So in response to your own survey and published 
reports, many of the employees of the State Department 
themselves don't feel the support of the President or the 
Secretary?
    Mr. Sullivan. I don't know that that was specifically 
addressed in the survey. I would say that--when I say that 
morale is not high, I think there is uncertainly and that 
causes--uncertainty leaves people unsettled and we need to 
address that.
    Mr. Bera. But we could surmise, if you work for a 
department, and you are told that we are going to cut your 
budget 30 percent, that you don't feel support. That you feel--
and I'm not discounting--there were also--you have referenced 
outdated IT, redundancies, duplicative processes. So we are all 
for trying to improve efficiency. But, again, widely reported 
surveys, the Wall Street Journal, others, suggest that many of 
the employees of the Department don't feel that support from 
the White House.
    Mr. Kinzinger asked a question and, again, I want to make 
sure I heard this correctly. Less than 50 percent of the 
Assistant Under Secretary positions are currently filled?
    Mr. Sullivan. By confirmed, Presidential appointees, yes.
    Mr. Bera. Okay. Mr. Rohrabacher asked a question and 
suggested that nearly 50 countries currently don't have an 
appointed or confirmed Ambassador?
    Mr. Sullivan. I am not certain about that statistic, I 
would have to get back to you on that. But if they don't have a 
confirmed Ambassador, they have a charge who is performing the 
duties and functions.
    Mr. Bera. But, again, there is an urgency to get those 
Ambassadors to----
    Mr. Sullivan. Absolutely. I would be the first to 
acknowledge that we need to fill these positions as quickly as 
possible.
    Mr. Bera. Do we currently have a South Korean Ambassador?
    Mr. Sullivan. We do not.
    Mr. Bera. Do we have one that we are going to put forth for 
nomination?
    Mr. Sullivan. We have an individual who is in the vetting 
process, but the nomination hasn't been announced yet.
    Mr. Bera. Do we have an Ambassador to Jordan?
    Mr. Sullivan. I don't know where that person stands in the 
process.
    Mr. Bera. My understanding is currently we don't have an--
--
    Mr. Sullivan. Well, we don't have an Ambassador now, but I 
thought the question as----
    Mr. Bera. Now, this is one of our country's closest allies 
to a country that is stressed by 1\1/2\ to 2 million refugees, 
and they are struggling. And we have to do everything we can to 
support Jordan. Do would have an Ambassador to Qatar?
    Mr. Sullivan. No, we have a charge.
    Mr. Bera. Do we have an Ambassador to Saudi Arabia?
    Mr. Sullivan. For all these reasons you suggest, 
Congressman, we need to have those positions filled.
    Mr. Bera. Absolutely. Right. There is a lot going on in the 
Middle East right now.
    Mr. Sullivan. Right.
    Mr. Bera. We need those folks on the ground representing 
us.
    Mr. Sullivan. I do want to say, if I may, though, that the 
career people who are in some of these positions will be filled 
by career people. But the State Department, through its Foreign 
Service Officers, who are standing up and doing their jobs are 
filling in either as acting or as charges, so our work is 
getting it done. It would it better done if we had those 
positions filled.
    Mr. Bera. Absolutely. And I don't want to disparage our 
State Department employees all around the world, I think they 
are doing a phenomenal job under trying circumstances. They are 
stepping up. They are representing the values of the United 
States, and they are true patriots, but we have got to get 
these positions filled. Would you say the hold-up currently is 
within the State Department or at the White House?
    Mr. Sullivan. Both. And the Senate.
    Mr. Bera. What can we do as the members of the Foreign 
Affairs Committee to speed up this process? Because I think 
many of us travel and visit with folks, you know, we are also 
sensing that we need these positions filled. What can we do to 
push the urgency of now?
    Mr. Sullivan. Well, for this committee, I am not sure what 
I would recommend other than your support for our nominees that 
we have going forward. We can get the nominees through the 
pipeline up to the Foreign Relations Committee, but to the 
extent that there could be support for those nominees and to 
get them confirmed as quickly as possible, that would be much--
--
    Mr. Bera. Let's get these positions filled.
    Mr. Sullivan. Right.
    Chairman Royce. The chairman of the Homeland Security 
Committee, Mr. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman. And, Mr. Sullivan, 
Secretary, congratulations on your confirmation.
    Mr. Sullivan. Thank you.
    Mr. McCaul. And welcome to your first hearing. I wanted to 
touch on cybersecurity. I deal a lot with that on Homeland 
Security issues. And I think the State Department is going to 
be more and more involved in this area. As I see the espionage 
coming out of foreign adversary, nation states, cyber warfare, 
and I think right now there are no rules of the road. There are 
really no treaties or other things agreed to by nation states, 
would NATO apply in the event of a cyber attack. And so there 
are a lot of issues that--or questions raised about cyber that 
I think the State Department--as cyber becomes a bigger and 
bigger issue, the State Department is going to have quite a 
role in this arena.
    So I want to ask you about what you envision the future at 
State to be on that issue. I know there is an Office of 
Coordination for Cyber Issues that is being sort of down-played 
with another office. I want to thank Chairman Royce and Engel, 
ranking member, for introducing the Cyber Diplomacy Act of 
2017, which would essentially codify into law an Office of 
Cyber Issues headed by an Ambassador reporting directly to the 
Under Secretary for Political Affairs.
    I'm not sure I want to put you quite on the spot with the 
bill itself, but can you give me your thoughts on the direction 
moving forward?
    Mr. Sullivan. And I have spoken to the Secretary about 
this, and we have had a number of conversations about the need 
to elevate this issue within the State Department. Cyber, 
broadly defined, not only our cyber defense, but our cyber 
diplomacy in our interaction with the Department of Defense on 
cyber issues. And my expectation is that part of our redesign, 
we will elevate to a Senate confirmed level, the role, and we 
will have to figure out what the title is and where it figures 
in the bureaucracy. But our commitment is to elevate and 
provide the appropriate resources for leadership on this 
essential issue.
    Mr. McCaul. I think this is excellent because this is no 
longer just an FBI, Homeland, NSA issue, it is really a State 
Department issue. So I am very pleased to hear that.
    Secondly, as I look at hot spots, particularly in Africa, 
with these fragile states out of destabilization, rises 
insurgencies and terrorist safe havens and vacuums, can you 
tell me what the State Department will be doing with USAID to 
help with foreign assistance programs to help stabilize this 
destabilization? It seems to me it would be a very good use of 
our money rather than to have to deal with the terrorism 
insurgencies after the fact.
    Mr. Sullivan. Well, I will give you a current example about 
our planning for a post-ISIS Syria. As we defeat ISIS in Raqqa, 
as we move further east in Syria. The State Department, USAID, 
the U.S. Government, our allies and partners need to fill in, 
provide the basic services, water, food, hygiene, to get 
refugees back into their homes to try to rehabilitate these 
communities. This isn't nation building, this is just basic 
human necessities to try to address the calamity that has been 
visited on these cities and these regions by occupation by 
ISIS. And that is a role--that is where the State Department, 
USAID and our allies and partners need to step up. The Defense 
Department and our allies and partners are defeating ISIS. We 
have got to be prepared to step in after that battle is won and 
take the ball from there.
    Mr. McCaul. That is very good to hear that. I think that is 
an excellent approach. I will just make a quick statement 
because my time is running out.
    The Global Development Lab, I have been a strong supporter 
of that in the past, and I ask that you take a look at that in 
terms of State Department support.
    Mr. Sullivan. I would be happy to. Thank you, Congressman.
    Mr. McCaul. Thank you, sir.
    Chairman Royce. Brad Schneider of Illinois.
    Mr. Schneider. Thank you. And, Deputy Secretary, thank you 
for your long service to our Nation and in indulging us here 
today in this hearing, and for your candor in your answers.
    We are here talking about this restructuring. And 
restructuring, I think everyone agrees, any time we can find 
efficiencies, we should pursue those and pursue those 
aggressively. But a restructuring, whether it is in business 
or, in this case, in the State Department, should follow a 
strategic structure, and that strategy should follow from our 
mission and vision. Broadly stated, what would you define is 
the mission of the State Department right now?
    Mr. Sullivan. The mission of the State Department is to--in 
promotion of American democratic values, to implement U.S. 
foreign policy through active diplomacy.
    Mr. Schneider. And within the Secretary's vision or your 
vision of how we go about doing that, in the context of the 
world we face in 2017 and looking forward?
    Mr. Sullivan. Wow, that is a big question. We have got 
several layers of challenges. We have countries, regions, where 
there are imminent national security threats to the United 
States, whether it is ISIS in Syria, al-Qaeda, the Taliban, the 
Haqqani network in South Asia, which are obvious priorities to 
protect the United States, to protect our national security.
    But beyond that, throughout the globe, there are areas 
where, as has been raised elsewhere in the hearing, where we 
want to be active to make sure that we are on the look-out for 
that next Iraq and Syria, or that next Mindanao in the 
Philippines, so that we are being proactive. We have people on 
the ground who are able to spot issues, spot problems before 
they become national security threats to the United States. 
That is one of our key jobs at the State Department.
    Mr. Schneider. That is a goal promoting U.S. interests--
around the world has to be a goal. I think it was my colleague 
from Illinois, Mr. Kinzinger, pointed out that we didn't have 
those feet on the ground, those eyes in the community in 
Afghanistan, and paid some dire consequences because of that. 
And yet, as we talk about this reorganization, it seems that 
the emphasis is on cost-cutting, the emphasis is on the 
efficiencies. How does the reorganization specifically fit 
within the goals underlying the strategy that you just laid 
out?
    Mr. Sullivan. So a lot of--when we talk about efficiencies 
and effectiveness, part of it is the budget and the cost 
savings, but part of it is also empowering our men and women in 
the Foreign Service and the Civil Service for redundant 
bureaucratic processes or bureaucratic processes that don't 
serve our people well.
    I have heard complaints since the day I arrived on the 
bureaucracy that manages how our women and men and their 
families transfer from post to post, how their bills are 
processed, how they do it. Making their lives easier, as they 
should be, in how they--in their service to our country, is one 
of the things we talk--when we talk about effectiveness and 
cost savings and eliminating redundancies.
    Mr. Schneider. Absolutely. And what you describe is having 
a diplomatic corps, development officers around the world who 
feel empowered. There was a business book, and clearly from 
this organization plan, there are many lessons taken from 
business here, but one of my best--one of my favorite examples 
of how to have a good workforce is you empower them, you give 
them autonomy, you allow them to master their skills, and you 
let them operate with a clear purpose. I'm not sure I see this 
from here. So that is one of my concerns. And we the touched on 
the morale issue.
    I think if we can present a narrative to the people at the 
State Department and the American people, of what we are trying 
to achieve and how this better achieves it, that would be 
great. What I am seeing is, this is much more of an emphasis on 
cost reduction and slashing than it is on pursuing and 
protecting and promoting our interests around the world.
    Let me take, in the limited time I have, take you to some 
other questions. One of the concerns many of us have are the 
President's tweets, specifically as it relates to foreign 
affairs, I think specifically as it relates to a recent moment 
regarding North Korea. How is the State Department managing 
that? What can we do to make sure we don't get ourselves into 
an unintended situation with North Korea?
    Mr. Sullivan. Well, both Secretary Tillerson and Secretary 
Mattis have made it clear that diplomacy is our prime objective 
in addressing the North Korean problem and denuclearizing the 
North Korean peninsula. The Secretary has made it clear that we 
are not looking for regime change in North Korea. We are not 
looking to cross the 38th parallel. Diplomacy is our principal 
means of addressing this problem.
    General McMaster and Secretary Mattis, for that matter, 
have also said that this is a regime that has weapons that can 
threaten the United States, so we need to be prepared with a 
military response, but that is not our first resort. Our first 
and principal objective is to use American diplomacy, American 
pressure through our allies, our partners, and in countries 
like China and Russia, to bring this situation to a rational 
conclusion and denuclearize the Korean peninsula, which is 
everyone's goal, and the purpose of those U.N. Security Council 
resolutions.
    Ms. Schneider. Thank you, and I agree with you, diplomacy 
has to be the front of that to make sure we have a good 
solution to this crisis. And I yield back.
    Chairman Royce. We thank Mr. Schneider for going on our 
delegation to South Korea last month. We go to Mr. Tom Garrett 
of Virginia.
    Mr. Garrett. Thank you, Mr. Chairman. I would ask if 
diplomacy is as effective a mechanism to effect change where 
other options are publicly and clearly not on the table? And by 
other options I mean kinetic options?
    Mr. Sullivan. With respect to North Korea?
    Mr. Garrett. Sure. I guess the suggestion that I would 
submit for your comment quickly is that diplomatic efforts have 
a greater likelihood of success if there are some teeth to the 
possibility that there might be efforts that are more kinetic 
in nature?
    Mr. Sullivan. Correct. And General McMaster and Secretary 
Mattis have made that clear.
    Mr. Garrett. Right. And I want to make sure that that is 
clear to anyone who is watching at home or maybe perhaps in 
Pyongyang or anywhere else in the world, that we want a 
peaceful and diplomatic solution, but while the lives of 
Americans and our allies are threatened, all options are on the 
table, and that needs to be clear. Sorry for the soliloquy.
    I have done a little bit of research on you, and I find 
that you, like myself, made the mistake of pursuing a legal 
education. The only thing that you might do that would be 
looked upon in less esteem is being a member of this body--I am 
kidding, maybe. But I wonder if you are familiar with the U.N. 
Security Council Resolution 1929 from 2010 with regards to 
Iranian ballistic missiles and nuclear activity?
    Mr. Sullivan. I am.
    Mr. Garrett. And so then you are undoubtedly aware that the 
wording of that resolution was that Iran shall not undertake--
and I stress shall not because that has meaning to lawyers and 
diplomats, et cetera, the testing of ballistics missiles that 
might be married to a nuclear problem. Is that correct?
    Mr. Sullivan. It is phrased in the imperative, they shall 
not.
    Mr. Garrett. And so, too, in 2015, the Security Council 
Resolution 2231 with the regards to Iran, formed after the 
JCPOA, which I have repeatedly referred to, not to be cute, but 
based on whole-hearted opinion, the JCPOS, which says, Iran is 
called upon not to undertake these activities. Are you familiar 
with that wording?
    Mr. Sullivan. I believe so, yes.
    Mr. Garrett. Okay. So, in 2010, the wording was, Iran shall 
not. In 2015, the wording was, Iran is called upon not to. And 
you said earlier that the U.N. had said that Iran was in 
technical compliance with the JCPOA, but it violated the spirit 
of the JCPOA. When the wording hammered out is, Iran is called 
upon not to, as opposed to, shall not, does that make your job 
more difficult as it relates to creating a circumstance where 
Iran doesn't enhance its nuclear capability and the ability to 
deliver such weapons?
    Mr. Sullivan. It certainly undercuts the arguments that 
Iran is prescribed from the ballistic missile activity that it 
is engaged in.
    Mr. Garrett. So I wonder--and this is rhetorical--what sort 
of attorneys and diplomats hammered out language that was far 
more permissive than the precedent language, and what the 
intent was, or if it was complete incompetence? That was 
rhetorical.
    I want to take a moment to draw attention, Mr. Chairman, if 
you will grant me the leave to the gentlemen and ladies in this 
room in yellow coats and those not wearing yellow coats, which 
are emblazoned with Free Iran, and the perpetual presence of 
these individuals in this committee to stand for a free Iranian 
nation, where individuals are empowered to make decisions for 
themselves without fear of the retribution of a regime through 
the IRGC and the Quds Force thereof, that is willing to take 
the lives of their very brothers and sisters. And I want to 
applaud them and ask them to continue in these efforts that one 
day, perhaps, we will see the fruit of your diligence and your 
persistence.
    So I apologize for the aside, but I think it is important 
to recognize that you all are always here, that it matters, and 
that it matters to Chairman Royce, to Ranking Member Engel, and 
the members of this committee. And I get frustrated, as a 
member of this body, that sometimes I feel like things don't 
move quickly enough, but we will achieve an outcome that is 
just and fair for good people across the planet, and that flies 
in the face of the totalitarian and radical objectives of those 
who seek to oppress human beings. And so thank you.
    Finally, I would submit that I believe that the application 
of appropriately spent funds on foreign aid might, if properly 
done, save money on things like bullets and bombs and rockets. 
I would ask if you would concur that foreign aid has a role in 
peace and stability throughout the world?
    Mr. Sullivan. I would join Secretary Mattis in agreeing 
with that whole-heartedly.
    Mr. Garrett. And so I appreciate that because I think some 
of the rhetoric and questioning heretofore has indicated that 
money is the sole arbiter of our commitment to diplomacy and 
peaceful outcomes. And I would ask you, is the intent of the 
reorganization simply to perform our job more efficiently and 
as better stewards of tax dollars, and not to gut our foreign 
aid efforts, which would I think meet with bipartisan 
resistance from this committee and others?
    Mr. Sullivan. That is exactly the purpose, Congressman, it 
is not to gut our foreign aid.
    Mr. Garrett. I thank you for your efforts and applaud you 
and look forward to working with you.
    Mr. Sullivan. Thank you.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Good morning and thank you for being here. I 
thank you for your service. And I have great admiration for 
those who serve in the State Department, and I think it is a 
very important function of our Government.
    My colleagues have done a good job in covering a lot of 
issues, and I will start by saying, I think reorganization is 
part of the bureaucracy. Every bureaucracy reorganizes, that is 
part of bureaucracy. It doesn't make sense to me that before 
you reorganize or go through this process that there would be a 
suggestion of a one-third cut in the budget. But I will put 
that aside for now because I want to talk about the women of 
the world. And here is what I am very concerned about. I am not 
going to--I won't be accusatory, I am going to try to be 
diplomatic--that is rare. I am going to try to be diplomatic. 
But, listen, I believe that the actions that this 
administration has taken is systematically going to add great 
suffering to women and families around the globe.
    And I want to mention a couple of them. I think, right off 
the bat, of course, is the elimination for funding for global 
family planning and reproductive health, eliminating funding 
for international organizations and programs which support 
voluntary contributions to several programs in the U.N. system. 
Prohibiting contributions to the UNFPA, which works not only 
with women's health, but obviously child marriage. And 
expanding the global gag rule, the old one wasn't good enough. 
You know, I could go on and on. The proposed $1 billion 
decrease in the global health programs, which will 
disproportionately harm women and girls. Now, I do have a 
question out of this. I know you are waiting for that. There is 
an Office of Global Women's Issues, and there is a proposal to 
downgrade it--I think it is a downgrade, but you will have to 
tell me if it is--which is to downgrade the Office of Global 
Women's Issues from the Secretary's office to one that instead 
reports to the Under Secretary for Civilian Democracy and Human 
Rights.
    So can you explain the difference that will be? Is there 
plans to name an Ambassador-at-Large to lead the office? Those 
are my first two questions. Why don't you answer those first?
    Mr. Sullivan. Sure. Yes. In fact, I have interviewed 
candidates for that position. It will be filled promptly. And 
it is the proposal that was sent up to this committee and to 
Congress on moving the office. The office is going to remain as 
is with the same structure and budget. It is moving it from the 
Office of the Secretary to a bureau under the Under Secretary, 
as you mentioned. We believe that that actually strengthens the 
office. What has happened with all of the special envoys, there 
are almost 70 of them, they all report to the Secretary.
    For the Secretary to have 70 individuals--or 70 offices 
reporting to him, he doesn't have the time to dedicate to each 
and every one of them. All of them are important. With this 
office, which is important not just to the Secretary but to the 
President, if it's got the support of the State Department 
bureaucracy, the bureau which it will be located. And I think 
the most important feature of this office is the person we 
nominate. The office is going to be as good as the person we 
nominate, and that really is the key issue.
    Ms. Frankel. Thank you. I am glad to hear that. I want to 
say this has emphatically as I can. There is no reorganization 
in the State Department that is a substitute for enabling women 
around this world to be in control of their own bodies and to 
have reproductive health. So that is the message I want to say. 
And I think this administration is on the wrong path, and it 
caused a lot of harm, not only to the health of women and their 
families, but to the economic security of their countries, 
because when women cannot be in control of their own bodies, 
they don't work, and they don't produce for the economy. And 
with that, I yield back.
    Chairman Royce. Will the gentlelady yield for one question?
    Ms. Frankel. I am yielding back.
    Chairman Royce. I have a question I have to ask just on 
behalf of the committee. We need to hear about the redesign 
timeline. When will you be coming back to the committee with 
the legislative reform proposals?
    Mr. Sullivan. Well, we have started that process, Mr. 
Chairman, with the proposals on special envoys. My expectation 
is that as the redesign goes forward, we would be coming, as 
they are ready, with proposals to this committee. My hope and 
expectation is that all of the major reforms that we are going 
to propose will be done by the end of this calendar year.
    Chairman Royce. At the end of the calendar year. Thank you. 
And Mr. Tom Garrett will be presiding as chairman, and Mr. 
Espaillat as ranking member from here on out. Thank you.
    Mr. Garrett [presiding]. Thank you. We now recognize 
Representative Norma Torres of California for 5 minutes.
    Mrs. Torres. Thank you. Deputy Secretary, congratulations, 
you are now 4 months and 2 days into your position. 
Congratulations. Modernization is a good thing for any 
government agency bureaucracy, or whatever you want to call it. 
And I fully support giving the State Department the technology 
it need to keep our nation abroad safe. At a time when we are 
facing serious threats from North Korea, Russia, and elsewhere, 
I firmly believe that we need a State Department that is fully 
equipped to keep us safe. Unfortunately, this administration 
has followed a path, huge budget cuts, leaving senior positions 
unfilled, that has weakened the State Department, and has put 
our national security at risk. So I am looking forward, as my 
colleagues, to seeing that redesign timeline and how 
specifically and knowledgeably these cuts are going to be 
implemented.
    One of the most significant threats to our national 
security is the prevalence of corruption across the globe. 
Threats to our homeland, including terrorism and drug 
trafficking often arise in countries where corruption thrives. 
Corrupt actors also pose a real danger to our political and 
economic system when they seek to launder their funds in U.S. 
banks, lobby our Government to advance their own interests, and 
even seek to interfere in our elections.
    This past week I traveled to Guatemala as part of the House 
democracy partnership delegation. Guatemala is currently in the 
middle of a crisis that is the result of political elites 
trying to protect themselves from a U.S. supported anti-
corruption drive. I am very worried if the progress that we 
have made in Guatemala is turned back, it could have very 
significant impact once again at our border. How will the 
reorganization process help State become more effective in 
combatting corruption? And what steps are you taking to ensure 
that State coordinates more effectively with other agencies, 
including the Department of Justice, to ensure that we are 
protected from the influence of foreign corruption?
    Mr. Sullivan. Well, you are absolutely right, 
Congresswoman, corruption is a serious problem. It is a serious 
problem--a national security problem for us in Afghanistan. 
Corruption in Afghanistan is an enormous problem. The Afghan 
Government acknowledges it. The issue you raised in Guatemala, 
that is a very serious problem. The ray of hope I see in 
Guatemala is that judicial decision that reversed the 
President's decision on removing the head of that commission. 
There is some hope that the rule of law will triumph there.
    Mrs. Torres. Well, I cannot hang my hat, if I wore one, on 
hope, sir. So I specifically want to know what steps we are 
taking to ensure that the State Department is more effectively 
coordinating with other agencies to ensure that we know what is 
happening, and that we take steps to prevent these governments 
from influencing our Government.
    Mr. Sullivan. Well, we are working closely with the Justice 
Department and with other government agencies in Guatemala, in 
particular, to address this problem. We have made our position 
clear that the United States does not support the actions that 
the President took and there will be consequences.
    Mrs. Torres. I am going to be a little bit critical of our 
folks down there, because I think that they were not fully 
informed or were being very evasive with our members at 
disclosing everything that has been happening in the region. We 
are in a place where there is no going back. Either we move 
forward--there were 200,000 people demonstrating in the streets 
of Guatemala when we landed. 200,000 people that could be seen 
from the air.
    If we don't continue to advance and support the people 
there at ensuring that this government in Guatemala, the 
current government, understands that we will not stand for 
their elitist corruption behavior. We are going to be in 
serious trouble, sir, when we are going to see more children 
come to the U.S.
    And I have spent the last 3 years working to ensure that 
that doesn't happen. That they can see a future for themselves. 
I understand that you have only been at this position for 4 
months, but the first hour on your job, I expect everybody to 
know what is going on and be prepared for the job.
    Recent years, USAID has made significant progress in 
monitoring and evaluating its programming. As you work to more 
closely align our development efforts with our foreign policies 
goals, how would you ensure that the gains of USAID has made in 
this area are not diluted back, and maybe you can write back, 
or maybe answer some of the letters that I have written in 
response to what is happening in the region.
    My time is up, so I am going to yield back.
    Mr. Garrett. Thank you, ma'am. And I would now recognize 
Adriano Espaillat of New York for 5 minutes.
    Mr. Espaillat. Thank you, Congressman Garrett. Deputy 
Secretary, thank you so much for your patience. A long time in 
answering our questions. We are really thankful for your 
patience.
    I want to find out what is the--given the current storms 
that have hit the Caribbean hard, what is the extent that 
USAID's Office of Foreign Disaster Assistance, what are they 
doing and what is currently in place in these small nations 
that have been--Barbuda, the Dominican Republic, that have been 
hard hit by Hurricane Irma and Maria, in some cases.
    Mr. Sullivan. Yes, the DART teams at USAID are very 
important tools for the U.S. Government, both with respect to 
the hurricanes that have hit the Caribbean and the earthquakes 
in Mexico.
    Mr. Espaillat. That is correct.
    Mr. Sullivan. USAID is really stretched to the limit at 
this point in its capacity in dealing with all of these 
horrible natural disasters that have occurred simultaneously. 
So it is a big challenge for us, and of course we have got in 
our own--in our own Puerto Rico, enormous problems that we have 
got to, as a U.S. Government, address. So USAID is working on 
this with all of its available resources, but it is a big 
challenge.
    Mr. Espaillat. In terms of funding, how much money has been 
allocated to respond to these natural disasters so far?
    Mr. Sullivan. I will have to get you the exact figure. I 
will undertake to do that right after this hearing, sir.
    Mr. Espaillat. Now, you mentioned Puerto Rico--and 
obviously, probably the island that has been hard hit the most 
is Puerto Rico, it has been termed Caribbean Katrina. And I 
wanted to see--and FEMA has been also, just as you have, asking 
for help, their resources have been depleted. Is there any way 
that you can team up with FEMA to help Puerto Rico and the U.S. 
territories?
    Mr. Sullivan. Yes. We have actually sent teams down over 
the weekend both to assist the U.S. Government effort and to 
assist our State Department colleagues who work in Puerto Rico. 
So for Puerto Rico though, unlike foreign countries, this is a 
U.S.--these are U.S. citizens who are in trouble. This is a 
U.S. Government problem, not just a State Department problem. 
So we are doing all we can to support our colleagues and FEMA 
at DHS, it is coordinated by the White House. But it is an 
enormous challenge, Congressman, as you know, as well as 
anyone.
    Mr. Espaillat. Now, having heard that from you, I know that 
we often assist U.S. citizens for being evacuated from 
Caribbean countries. But there are right now currently 20,000 
Puerto Ricans that are on a waiting list to be evacuated or to 
leave the Commonwealth. Is there anything that could be done to 
help them? They are U.S. citizens, although they are in a U.S. 
territory.
    Mr. Sullivan. Yes.
    Mr. Espaillat. They are waiting to come either to the 
United States or other places in the world where they may have 
families or they may seek the help that they need right now.
    Mr. Sullivan. Or people with medical emergencies, for 
example, to get off the island.
    Mr. Espaillat. Correct.
    Mr. Sullivan. There have been problems, as I understand it, 
with the airports. And I am not as familiar because it is U.S. 
domestic territory, but we are doing all we can at the State 
Department to support our colleagues at DHS as coordinated by 
the White House in trying to address these problems.
    Mr. Espaillat. Will you be able to help them to evacuate 
them from the island to wherever they----
    Mr. Sullivan. We will do all we can to assist.
    Mr. Espaillat. Thank you. And, finally, with regard to the 
medical needs in Puerto Rico, do you have Spanish speaking 
personnel, and is there an assistant from the Pan American 
Health Organization to Puerto Rico going there? I mean, the 
second phase usually of these disasters is health issues.
    Mr. Sullivan. Right.
    Mr. Espaillat. Seek other kinds of diseases that may spurt 
up because of stagnated water and the flooding. Do you have any 
plans for medical assistance with the help of DHS?
    Mr. Sullivan. Yes. Just as we did with the original 
hurricane that hit Houston, State Department people went down, 
were mobilized as part of the response by DHS and FEMA. My 
expectation is that we will do the same in Puerto Rico as soon 
as we are able to get people on the island, and do not expose 
them to danger, but to do all we can to help.
    Mr. Espaillat. My time is up. Thank you.
    Mr. Garrett. I thank the gentleman from New York for 
adhering to the time limits. And I thank the Deputy Secretary 
for his time, and the Department for engaging with this 
committee in this process. I would ask that upon your return 
you provide information focusing on how we are not slashing 
foreign aid, but instead, trying to be more efficient and more 
effective and better stewards. I think that that is something 
you have heard a repeated call for. With that, we stand 
adjourned.
    Mr. Sullivan. Thank you.
    [Whereupon, at 12:42 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
         
         
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
         
                                 [all]




</pre></body></html>
